<html>
<title> - EXAMINING THE PRESIDENT'S FISCAL YEAR 2017 BUDGET REQUEST FOR THE U.S. ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[Senate Hearing 114-341]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-341

EXAMINING THE PRESIDENT'S FISCAL YEAR 2017 BUDGET REQUEST FOR THE U.S. 
                    ENVIRONMENTAL PROTECTION AGENCY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 19, 2016

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








       Available via the World Wide Web: http://www.gpo.gov/fdsys
       
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-265 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001      
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 19, 2016
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...     3

                               WITNESSES

McCarthy, Gina, Administrator, Environmental Protection Agency; 
  Accompanied by: David Bloom, Chief Financial Officer, 
  Environmental Protection Agency................................     5
    Prepared statement...........................................     6
Responses to additional questions from:
    Senator Gillibrand...........................................    11
    Senator Inhofe...............................................    13
    Senator Rounds...............................................    15
    Senator Wicker...............................................    18

 
EXAMINING THE PRESIDENT'S FISCAL YEAR 2017 BUDGET REQUEST FOR THE U.S. 
                    ENVIRONMENTAL PROTECTION AGENCY

                              ----------                              


                        TUESDAY, APRIL 19, 2016

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
room 406, Dirksen Senate Office Building, Hon. James Inhofe 
(chairman of the committee) presiding.
    Present: Senators Inhofe, Boxer, Vitter, Barrasso, Capito, 
Boozman, Wicker, Fischer, Rounds, Sullivan, Carper, Cardin, 
Whitehouse, Gillibrand, Booker and Markey.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. The hearing will come to order.
    First of all, welcome, Administrator McCarthy. We 
appreciate you being here. As I said to you before the meeting, 
this may be the last positive note, but I want to start off on 
a positive note, and that is I want you to commend your staff 
that has been working on TSCA with us. It has been very, very 
difficult, and it looks like now we are just a matter of 
hopefully hours away of having agreement with the House. But 
without your staff concentrating on that, it really couldn't 
have happened, so I hope you will share that with them. I am 
sure maybe they are watching now.
    Administrator, the President has requested almost $8.3 
billion to fund EPA next fiscal year, an increase of more than 
$87 million from last year's enacted. I would like to address 
what I believe are misplaced priorities and how the President 
is sacrificing EPA's core programs to advance his climate 
agenda.
    The President is seeking--and I had two different sources 
here. I think the figure is accurate. The total amount he is 
seeking would be $235 million to implement the Clean Power 
Plan, even though EPA has testified before this Committee that 
they have done no modeling whether the rule would have any 
impact on global temperature change and the Supreme Court has 
stayed it from going into effect because of ongoing litigation 
which could well last until 2018.
    The President is intent on picking winners and losers in 
the energy economy. The budget request makes clear the 
President's intention to now squeeze the oil and gas sector 
through costly new regulations and increased inspections and 
enforcement, much like it did with coal mines and power plants 
at the beginning of the Administration. Another example is how 
the budget requests $300 million in mandatory funding, or more 
than $1.6 billion over 10 years, to pay for charging stations 
for electric vehicles and other subsidies to remake our 
transportation infrastructure.
    Meanwhile, the President again proposes cutting $40 million 
from the very successful diesel emission retrofit program that 
Senator Carper and I support. The budget would also eliminate 
State grants to address radon, even though radon is the second 
leading cause of lung cancer.
    In the hearing earlier this month, we heard testimony about 
the challenges faced by States and local governments in meeting 
EPA clean water mandates. But the President's budget would cut 
$414 million from the Clean Water State Revolving Fund which 
helps these very same States and local communities pay for 
improvements to sewer and wastewater treatment systems.
    Regardless of what one thinks about the President's policy 
goals, here are a few objective results: The Supreme Court has 
stayed the Clean Power Plan, the centerpiece of the President's 
climate legacy, over questions that EPA exceeded the limits of 
its authority under the Clean air Act.
    A headline in the New York Times and report by the GAO 
about EPA's violating the law by using taxpayer money for 
covert propaganda and illegal lobbying to support the Waters of 
the U.S. rule. Injunctions were issued to halt the WOTUS rule 
itself by the Sixth Circuit and a Federal district court in 
North Dakota. Last year's Supreme Court decision remanding a 
rule to limit mercury emissions from power plants because EPA 
ignored costs.
    As we have seen from the Gold King Mine blowout and the 
contaminated drinking water in Flint, Michigan, EPA has at 
times been distracted from fulfilling its core missions due to 
the Obama administration's single-minded focus on remaking EPA 
into an agency that regulates climate change and the energy 
sector.
    The members of this Committee and I look forward to asking 
you about the EPA's priorities and regulatory agenda.
    Senator Boxer.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Administrator McCarthy, thank you for appearing this 
morning. The President has requested almost $8.3 billion to 
fund EPA next fiscal year--an increase of more that $87 million 
from last year's enacted.
    This budget is just the lates example of the 
Administration's misplaced priorities and how EPA's core 
programs are being sacraficed to advance President Obama's 
climate legacy.
    The President is seeking more than $50 million just to 
implement the Clean Power Plant--even though the rule will have 
negligible impact on global temperature chand and the Supreme 
Court has stayed it from going into effeect because of ongoing 
litigation.
    The Obama EPA is intent on picking winners and losers in 
the energy economy. The budget request makes clear the 
President's intention to now squeeze the oil and gas sector 
through costly new reulations and increased inspections and 
enforcement, much like it did with coal mines amd power plants 
at the beginning of the Administration.
    Another example of this is how the budget request seeks 
$300 million in mandatory funding (or more than $1.6 billion 
over 10 years) to pay for charging stations for electric 
vehicles and other subsidies to remake our transportation 
infrastructure.
    Meanwhile, the president proposes cutting $40 million from 
the very successful diesel emission retrofit program that 
Senator Carper and I support. The budget would also eliminate 
state grants to address radon, even though radon is the second 
leading cause of lung cancer,
    In a heaing earlier this month, we heard testimony about 
the challenges faced by states and local governments in meeting 
EPA clean water mandates. But the President's budget would cut 
$414 million from the Clean Water State Revolving Fund which 
helps these very same states and local communities pay for 
improvements to sewer and waste water treatment systems.
    A key part of last year's budget request was to fund dozens 
of new atorneys. But what does EPA have to show for this hiring 
spree?

     The Supreme Court has stayed the Clean Power Plan--the 
centerpiece of the President's climate legacy--over questions 
the EPA exceeded the limits of its authority under the Clean 
Air Act.
     A headline in the New York Times and report by GAO about 
how EPA violated the law by using tax-payer money for covert 
propaganda and illegal lobbying to support the Waters of the 
U.S. rule.
     Injunctions were issued to halt the WTUS rule itself by 
the Sixth Circuit and a federal district court in North Dakota.
     And let's not forget last year's Supreme Court decision 
remanding a rule to limit mercury emissions from power plants 
because EPA ignored costs.

    As we have seen from the Gold King Mine blowout and the 
contaminated drinking water in Flint, EPA has at times been 
distracted from fulfilling its core missions due to the Obama 
Administration's dingle-minded focus on remaking EPA into an 
agency that regulates climate change and the energy sector.
    The job of EPA Administrator comes with a high level of 
scrutiny from Congress and the American people. We may not see 
eye to eye on everything. But I appreciate the support you and 
your staff have provided fot some of the Committee's work 
especially to modernize the Toxic Substance Control Act. As you 
know the Senate passed by voice vote last December a TSCA 
reform bill named after our colleague Frank Lautenberg, and I 
thank you and your staff for your continued help in moving that 
bill forward.
    The members of this Committee ans I are looking forward to 
quetioning EPA's prioities and regulatory agenda.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thanks, Mr. Chairman.
    Welcome, and I will defend you as much as possible from 
what is coming at you.
    EPA's work implementing our Nation's landmark laws to 
address clean air, children's health, safe drinking water, 
toxics, and water quality in America's lakes and rivers is 
essential for public health and safety. Despite my colleague's 
chagrin, the work of the EPA to keep our families healthy is 
widely supported in poll after poll after poll where the 
opinion of this Senate and this House is probably around the 
17, 18 percent range at best. So let's be clear what we are 
talking about.
    Vast majority support your work and, sadly, vast majority 
think that we are not doing our jobs or not doing it well. That 
is sad.
    Now, on the budget, EPA's budget of $8.27 billion is down 
from 7 years ago when the budget was $10.3 billion. It is a sad 
situation, and I am sorry that the President didn't make this a 
bigger priority. I guess it is $127 million increase above 
2016, but there are cuts in this budget where I agree with my 
colleague that are wrong.
    So the problem is not enough money in the budget. That is 
what I think. And you are asked to do more with less, and you 
get criticized when you don't have a Johnny-on-the-spot answer 
when they have cut you like this over the years.
    It is important that EPA continue to focus on combatting 
dangerous climate change, which is happening all around us. For 
example, 2015 was the hottest year on record; 15 of the 16 
warmest years on record have occurred in the 21st century. Sea 
levels are rising many times faster than they have only in the 
last 2,800 years. That is all. We see record rainfalls, record 
droughts, record fires, and scientists are saying too much 
carbon pollution in the air caused by human activity.
    Young people, when asked about this, think that those 
people who don't recognize this as a threat are out of touch, 
and that is a nice way to put it. They say worse than that.
    EPA also has a critical responsibility to ensure drinking 
water is safe, and the American people have a right to expect 
that they will not be poisoned when they turn on their faucets. 
Small point, right? The lead poisoning of children in Flint is 
a tragedy, and we must commit to never let it happen again. The 
State of Michigan failed the people of Flint, is primarily 
responsible, in my view, because they changed the source of the 
water to save a few bucks; it ignored multiple warnings that it 
was poisoning its own citizens, and EPA has a responsibility to 
speak out when it sees action being taken that could harm 
public health. EPA could have, and should have, done more, and 
I hope the actions taken by EPA since the Flint crisis will 
help prevent similar tragedies from taking place in the future.
    This problem is far more widespread than is acknowledge. I 
know of cases in Mississippi, California, where they have 
turned off the drinking water for the children. Obviously, the 
older the pipes, the worse the problem. But the offense in 
Flint demonstrates we have a long way to go to provide 
reliable, safe drinking water to all Americans and in cleaning 
up the waterways that serve as sources of our drinking water.
    The American Society of Civil Engineers gives our Country's 
drinking water and wastewater infrastructure a big fat D. It is 
embarrassing that this, the greatest Country in the world--a 
lot of people say let's make America great again. America is 
great. But how do we stand here with an infrastructure rated D, 
or sit here, as the case may be?
    The American Water Works Association estimates that 7 
percent of homes, 15 to 22 million Americans, have lead service 
lines. This is unacceptable. We have to continue to invest in 
improving the Nation's failing water infrastructure.
    We are very happy about WIFIA. This is a program Senator 
Inhofe and I and all of the Committee worked on together to 
leverage private financing for critical drinking water. But 
WIFIA shouldn't be a replacement for the State Revolving Funds. 
I agree with my colleague on that. Our Nation's infrastructure 
needs far outstrip the funding available, and the proposed $257 
million cut to the State Revolving Funds will make this funding 
gap worse.
    Administrator McCarthy, you have a tough job, but the 
American people do support your mission, as I said. In poll 
after poll they favor the efforts to address climate change, 
cleanup the air, protect our water, and provide safe drinking 
water to 117 million Americans. You are doing essential work.
    For some reason this issue has become a partisan divide. It 
is my biggest regret, as I get ready to leave the Senate that I 
love so much, to see this divide. It is sad. We will see it on 
display today. It will speak for itself.
    Thank you.
    Senator Inhofe. Administrator McCarthy.

   STATEMENT OF GINA MCCARTHY, ADMINISTRATOR, ENVIRONMENTAL 
PROTECTION AGENCY; ACCOMPANIED BY: DAVID BLOOM, CHIEF FINANCIAL 
            OFFICER, ENVIRONMENTAL PROTECTION AGENCY

    Ms. McCarthy. Chairman Inhofe, Ranking Member Boxer, I 
really appreciate the opportunity to appear before you today to 
discuss EPA's proposed Fiscal Year 2017 budget, and I am joined 
today by the Agency's Deputy Chief Financial officer, David 
Bloom.
    EPA's budget request of $8.267 billion for the 2017 Fiscal 
Year lays out a strategy to ensure steady progress in 
addressing environmental issues that affect public health. For 
45 years our investments to protect public health and the 
environment have consistently paid off many times over. We have 
cut air pollution by 70 percent and cleaned up half of the 
Nation's polluted waterways all the while our national economy 
has tripled.
    Effective environmental protection is a joint effort of the 
EPA, States, and our Tribal partners. That is why the largest 
portion of our budget, $3.28 billion, or almost 40 percent, is 
provided directly to our State and Tribal partners. In Fiscal 
Year 2017, we are requesting an increase of $77 million in 
funding for State and Tribal Assistance categorical grants in 
support of critical State work and air and water programs, as 
well as continued support for our Tribal partners.
    This budget request also reinforced EPA's focus on 
community support by providing targeted funding in support for 
regional coordinators to help communities find and determine 
the best programs to address local environmental priorities.
    The budget includes $90 million in Brownfield Project 
grants to local communities. That is an increase of $10 
million, which will help return contaminated sites to 
productive use.
    This budget prioritizes actions to reduce the impacts of 
climate change and it supports the President's Climate Action 
Plan. It includes $235 million for efforts to cut carbon 
pollution and other greenhouse gases through common sense 
standards, guidelines, as well as voluntary programs.
    The EPA's Clean Power Plan continues to be a top priority 
for the EPA and for our Nation's inevitable transition to a 
clean energy economy. Though the Supreme Court has temporarily 
stayed the CPP rule, States are not precluded from voluntarily 
choosing to continue implementation planning. EPA will continue 
to assist States that voluntarily decide to do so.
    As part of the President's 21st Century Clean 
Transportation Plan, the budget also proposes to establish a 
new mandatory fund at the EPA, providing $1.65 billion over the 
course of 10 years that will be used to retrofit, replace or 
repower diesel equipment, and up to $300 million in Fiscal Year 
2017 to renew and increase funding for the Diesel Emissions 
Reduction Grant Program. The budget also includes a $4.2 
million increase to enhance vehicle engine and fuel compliance 
programs, including critical testing capabilities.
    We also have to confront the systemic challenge that 
threatens our Country's drinking water and the infrastructure 
that delivers it.
    This budget includes a $2 million request for State 
Revolving Funds and $42 million in additional funds to provide 
technical assistance to small communities, loan financing to 
promote public-private collaboration, and training to increase 
the capacity of communities and States to plan and finance 
drinking water and wastewater infrastructure improvements.
    The EPA requests $20 million to fund the Water 
Infrastructure Finance and Innovation Act Program, or WIFIA, 
which will provide direct financing for the construction of 
water and wastewater infrastructure by making loans for large 
innovative projects of regional or national significance.
    This budget also provides $22 million in funding to expand 
the technical, managerial, and financial capabilities of 
drinking water systems. Included is $7.1 million for the Water 
Infrastructure and resiliency Finance Center, as well as the 
Center for Environmental Finance that will enable communities 
across the Country to focus on financial planning of upcoming 
public infrastructure investments, to expand work with States 
to identify financing opportunities for rural communities, and 
to enhance partnerships and collaboration with the U.S. 
Department of Agriculture.
    EPA is also seeking a $20 million increase to the Superfund 
Remedial Program, which will accelerate the pace of cleanups, 
supporting States, local communities, and Tribes in their 
effort to assess and cleanup sites and return them to 
productive use.
    EPA's Fiscal Year 2017 budget request will let us continue 
to make a real and visible difference to communities and public 
health every day, and provide us with foundation to revitalize 
the economy and improve infrastructure across the Country.
    Thank you for the opportunity to testify today, and I look 
forward to answering your questions.
    [The prepared statement of Ms. McCarthy follows:]

     Statement of Gina McCarthy, Administrator, U.S. Environmental 
                           Protection Agency

    Chairman Inhofe, Ranking Member Boxer, and members of the 
Committee, thank you for the opportunity to appear before you 
to discuss the Environmental Protection Agency's proposed 
fiscal year budget. I'm joined by the agency's Deputy Chief 
Financial Officer, David Bloom.
    The EPA is, at its very core, a public health agency. The 
simple fact is you cannot have healthy people without clean 
air, clean water, healthy land, and a stable climate. We have 
worked hard to deliver these and made significant progress over 
the years for the American people. This budget request of 
$8.267 billion [in discretionary funding] for the 2017 fiscal 
year, starting October 1, 2016, lays out a strategy to ensure 
that steady progress is made in addressing environmental 
problems. This strategy includes actions to protect public 
health and it ensures that the agency and its partners in 
environmental protection, states and tribes, are positioned to 
meet the challenges of the future. The request is $127 million 
above the agency's enacted level for fiscal year 6. For 45 
years, the EPA's investments to protect public health and the 
environment have helped make the nation's air, land, and waters 
cleaner.
    However, in many ways we are now at a turning point. As 
science advances, it improves our ability to measure pollution 
and provide better and more complete access to environmental 
information, but we know that the technologies and tools that 
we have relied on to date cannot be expected to meet all of 
today's challenges, like climate change and aging 
infrastructure. This budget supports efforts to leverage 
investments in technology, and be even more innovative and 
responsive, while reflecting an understanding that a strong 
economy depends on a healthy environment. It funds essential 
work to support our communities, address climate change, 
protect our waters, protect our land, ensure chemical safety, 
encourage pollution prevention, advance research and 
development and promote innovation and modernization to 
streamline processes.
    Supporting our state, local, and tribal partners is a 
central component of our work to protect public health and the 
environment. This budget builds on a history of addressing 
environmental and public health challenges as a shared 
responsibility. We are doing this while supporting a strong 
workforce at the EPA and maintaining a forward and adaptive 
organization with the tools necessary to ensure effective use 
of the public funds provided to us.


     making a visible difference in communities across the country


    We are committed to continuing our work with our partners 
to make a visible difference in communities across the 
country--especially in areas overburdened by pollution--
including distressed urban and rural communities.
    The EPA has made community support a top priority and this 
budget reinforces that focus. It includes a multi-faceted 
effort that builds and strengthens capacity using innovative 
tools, comprehensive training, technical assistance, and 
increased access to the most up-to-date scientific data. The 
EPA is committed to assisting communities in addressing their 
most pressing environmental concerns and will continue to 
innovate by taking full advantage of advances in technology to 
detect air and water pollution.
    In fiscal year 7, the EPA will provide targeted funding and 
support for regional coordinators to help communities find and 
determine the best programs to address local environmental 
priorities. The fiscal year budget also provides $17 million 
for the Alaska Native Villages infrastructure assistance 
program, and an additional $2.9 million within the Integrated 
Environmental Strategies program will support these communities 
in conducting resiliency planning exercises and capacity-
building. This will buildupon previous collaborative efforts 
with FEMA, NOAA and HUD.
    Across the budget, activities help communities adopt green 
infrastructure, provide technical assistance for building 
resilience and adapting to climate change, and help communities 
to reduce environmental impacts through advanced monitoring 
technology and decisionmaking tools. The EPA's budget also 
includes $90 million in Brownfields Project grants to local 
communities, an increase of $10 million. These funds will help 
to return contaminated sites to productive reuse by increasing 
investments in technical assistance and community grants for 
assessment and cleanup of areas where we work, live and play.
    The EPA will continue work to limit public exposure to 
uncontrolled releases of hazardous substances and make 
previously contaminated properties available for reuse by 
communities through a request of approximately $521 million in 
the Superfund Remedial program and another $185 million in the 
Superfund Emergency Response and Removal program. An increase 
of $24 million in Superfund cleanup programs will enable the 
remedial program to maximize the preparation of ``shovel-
ready'' projects, and provide funding to reduce the backlog of 
new construction projects that address exposure to contaminated 
soil and groundwater. It also supports critical resources with 
the Emergency Response and Removal program giving us the 
ability to quickly respond to simultaneous emergencies.


          addressing climate change and improving air quality


    The fiscal year budget request for the agency's work to 
address climate change and to improve air quality is $1.132 
billion. These resources will help protect those most 
vulnerable to climate impacts and the harmful health effects of 
air pollution through commonsense standards, guidelines, and 
partnership programs.
    Climate change remains a threat to public health, our 
economy, and national security and the U.S. recognizes our role 
and our responsibility to lead in cutting carbon pollution that 
is fueling climate change. To do so, our work will position the 
business community, its entrepreneurs, and its innovators to 
lead the world in a global effort while at the same time, 
expanding the economy. States and businesses across the country 
are working to build renewable energy infrastructure, increase 
energy efficiency, and cut carbon pollution--creating 
sustainable, middle class jobs and displaying the kind of 
innovation that has enabled this country to overcome so many 
challenges. Over the last decade, the U.S. has cut its total 
carbon pollution more than any other nation on Earth. And last 
November, we set a goal of reducing economy-wide greenhouse gas 
emissions by 26--28 percent by 2025. Even so, we are still 
ranked just behind China as the second largest emitter of 
CO<INF>2</INF> , so we need to continue to lead by example as 
we work to address this global challenge.
    The fiscal year budget prioritizes actions to reduce the 
impacts of climate change, one of the most significant 
challenges for this and future generations, and supports the 
President's Climate Action Plan. The budget includes $235 
million for efforts to cut carbon pollution and other 
greenhouse gases through common sense standards, guidelines, 
and voluntary programs. The EPA's Clean Power Plan, which 
establishes carbon pollution reduction standards for existing 
power plants, is a top priority for the EPA and will help spur 
innovation and economic growth while creating a clean energy 
economy. Although the Supreme Court has stayed the CPP rule, 
the stay does not preclude all continued work on the CPP and 
does not limit states that want to proceed with planning 
efforts or other actions to reduce greenhouse gas emissions 
from power plants. During the stay, EPA will continue to assist 
states that voluntarily decide to move forward, helping to pave 
the way for plans that will involve innovative approaches and 
flexibility for achieving solutions.
    The President's Climate Action Plan also calls for 
greenhouse gas reductions from the transportation sector by 
increasing fuel economy standards. These standards will 
represent significant savings at the pump, reduce carbon 
pollution, and reduce fuel costs for businesses, which is 
anticipated to lower prices for consumers. The budget includes 
a $4.2 million increase to enhance vehicle, engine and fuel 
compliance programs, including critical testing capabilities, 
to ensure compliance with emission standards. An additional $1 
million is included in the President's request to share the 
agency's mobile source expertise and technical assistance 
internationally with a focus on heavy duty trucks.
    As part of the President's 21st Century Clean 
Transportation Plan, the President's Budget proposes to 
establish a new mandatory fund at the EPA. The existing fleet 
of cars, trucks, and buses is aging, contributing to climate 
change and putting our children's health at risk. To protect 
the health of the most vulnerable populations and reduce 
childhood exposure to harmful exhaust, the EPA will provide a 
total of $1.65 billion through the Fund over the course of 10 
years to retrofit, replace, or repower diesel equipment. The 
proposed funding, which is separate from the agency's 
discretionary funding request, will provide up to $300 million 
in fiscal year to renew and increase funding for the Diesel 
Emissions Reduction Grant Program (DERA), which is set to 
expire in 2016. This budget also provides $10 million in 
discretionary funding to support our existing DERA program to 
provide national grants and rebates to reduce diesel emissions 
in priority areas.


                     protecting the nation's waters


    Protecting the nation's waters remains a top priority for 
the EPA. In fiscal year 7, the agency will continue to 
buildupon decades of work to ensure our waterways are clean and 
our drinking water is safe. There are far reaching effects when 
rivers, lakes, and oceans become polluted. Polluted waters can 
make our drinking water unsafe, threaten the waters where we 
swim and fish, and endanger wildlife. To meet these needs and 
to protect public health, we need to expand our impact through 
innovation. The State Revolving Funds (SRF) alone, while 
important, cannot and should not be relied upon to solve all 
infrastructure needs. New funds available under the Water 
Infrastructure Finance and Innovation Act (WIFIA) credit 
program, as well as technical assistance to help communities 
plan future investments and better leverage Federal, state, and 
local resources are necessary to get us there.
    We have to confront the systematic challenges that threaten 
our drinking water; a resource essential to every human being 
and living thing on Earth. The EPA will continue to partner 
with states to invest in our nation's water infrastructure. 
This budget includes a combined $2 billion request for the 
Clean Water and Drinking Water State Revolving Funds and $42 
million in additional funds to provide technical assistance to 
small communities, loan financing to promote public-private 
collaboration and training to increase the capacity of 
communities and states to plan and finance drinking water and 
wastewater infrastructure improvements.
    The Water Infrastructure Finance and Innovation Act (WIFIA) 
established a new financing mechanism for water and wastewater 
infrastructure projects. In this budget, the EPA requests $20 
million to fund the WIFIA program, which will provide direct 
financing for the construction of water and wastewater 
infrastructure by making loans for large innovative projects of 
regional or national significance. The WIFIA program also will 
work to support investments in small communities and promote 
public-private collaboration. $15 million of the $20 million 
increase in the budget will allow EPA to begin making loans for 
WIFIA projects. The program is designed to highly leverage 
these funds, translating into a potential loan capacity of 
nearly $1 billion to eligible entities for infrastructure 
projects.
    This budget provides $22 million in funding to expand the 
technical, managerial, and financial capabilities of drinking 
water and wastewater systems to provide safe and reliable 
services to their customers now and into the future. Included 
is $7.1 million for the Water Infrastructure and Resiliency 
Finance Center and the Center for Environmental Finance that 
will enable communities across the country to focus on 
financial planning for upcoming public infrastructure 
investments, expand work with states to identify financing 
opportunities for rural communities, and enhance partnership 
and collaboration with the U.S. Department of Agriculture. The 
Water Infrastructure and Resiliency Finance Center is part of 
the Build America Investment Initiative, a governmentwide 
effort to increase infrastructure investment and promote 
economic growth by creating opportunities for State and local 
governments and the private sector to collaborate on 
infrastructure development.


                          protecting our land


    The EPA strives to protect and restore land to create a 
safer environment for all Americans by cleaning up hazardous 
and non-hazardous wastes that can migrate to air, groundwater 
and surface water, contaminating drinking water supplies, 
causing acute illnesses and chronic diseases, and threatening 
healthy ecosystems. We preserve, restore, and protect our land, 
for both current and future generations by cleaning up 
contaminated sites and returning them to communities for reuse. 
Funding will assist communities in using existing 
infrastructure and planning for more efficient and livable 
communities, and encouraging the minimization of environmental 
impacts throughout the full life cycle of materials.
    Approximately 53 million people in the U.S. live within 3 
miles of a Superfund remedial site, roughly 17 percent of the 
U.S. population, including 18 percent of all children under the 
age of five. In fiscal year 7, we will increase the Superfund 
Remedial program by $20 million to accelerate the pace of 
cleanups, supporting states, local communities, and tribes in 
their efforts to assess and cleanup sites and return them to 
productive reuse, and encourage renewable energy development on 
formerly hazardous sites when appropriate. We also will expand 
the successful Brownfields program's community-driven approach 
to revitalizing contaminated land, providing grants, and 
supporting area-wide planning and technical assistance to 
maximize the benefits to the communities.


            taking steps to improve chemical facility safety


    The EPA is requesting $23.7 million for the State and Local 
Prevention and Preparedness program, an increase of $8.4 
million above the fiscal year enacted level.
    In support of the White House Executive Order 13650 on 
Improving Chemical Facility Safety and Security, the requested 
increase will allow the EPA to continue to expand upon its 
outreach and technical assistance to improve the safety and 
security of chemical facilities and reduce the risks of 
hazardous chemicals to facility workers and operators, 
communities, and responders.
    These efforts represent a shared commitment among those 
with a stake in chemical facility safety and security: facility 
owners and operators; Federal, state, local, tribal, and 
territorial governments; regional entities; nonprofit 
organizations; facility workers; first responders; 
environmental justice and local environmental organizations; 
and communities. The EPA therefore plays a significant and 
vital role.
    In fiscal year 7, the EPA will develop, initiate and 
deliver training to aid with expansive outreach and planning 
for local communities, emergency planners, and responders. This 
will assist local emergency planners and first responders in 
using the risk information available to them, educating the 
public about what to do if an accident occurs. The EPA also 
will work effectively with facilities to reduce the risks 
associated with the chemicals that are stored, used, or 
produced onsite to help prevent accidents from occurring.
    Continuing EPA's Commitment to Innovative Research & 
Development
    In building environmental policy, scientific research 
continues to be the foundation of EPA's work. Environmental 
issues in the 21st century are complex because of the interplay 
between air quality, climate change, water quality, healthy 
communities, and chemical safety. Today's complex issues 
require different thinking and different solutions than those 
used in the past. In fiscal year 7, we will continue to 
strengthen the agency's ability to develop solutions by 
providing $512 million to evaluate and predict potential 
environmental and human health impacts for decisionmakers at 
all levels of government. Activities in the fiscal year Budget 
include providing support tools for community health, 
investigating the unique properties of emerging materials, such 
as nanomaterials, and research to support the nation's range of 
growing water-use and ecological requirements. The Chemical 
Safety and Sustainability program will continue to place 
emphasis on computational toxicology (CompTox), which is 
letting us study chemical risks and exposure exponentially 
faster and more affordably than ever before. The EPA's ToxCast 
program has screened nearly 2,000 chemicals and Tox21 has 
screened over 8,000. In fiscal year we have an opportunity to 
further enhance CompTox and broaden its application, adding 
significant efficiency and effectiveness to agency operations.


                  supporting state and tribal partners


    Effective environmental protection is a joint effort of the 
EPA, states and our tribal partners, and we are setting a high 
bar for continuing our partnership efforts. That's why the 
largest part of our budget, $3.28 billion dollars, or almost 40 
percent, is provided directly to our State and tribal partners. 
In fiscal year 7, we are requesting an increase of $77 million 
in funding for State and Tribal Assistance categorical grants 
in support of critical State work in air and water protection 
as well as continued support for our tribal partners.
    The EPA is focused on opportunities to continue building 
closer collaboration and targeted joint planning and governance 
processes. One example is the E-Enterprise for the Environment 
approach, a transformative 21st century strategy to modernize 
the way in which government agencies deliver environmental 
protection. With our co-regulatory partners, we are working to 
streamline, reform, and integrate our shared business processes 
and related systems. These changes, including a shift to 
electronic reporting, will improve environmental results, 
reduce burden, and enhance services to the regulated community 
and the public. State-EPA-Tribal joint governance serves to 
organize the E-Enterprise partnership to elevate its 
visibility, boost coordination capacity, and ensure the 
inclusiveness and effectiveness of shared processes, management 
improvements, and future coordinated projects.


             maintaining a forward looking and adaptive epa


    The EPA has strategically evaluated its workforce and 
facility needs and will continue the comprehensive effort to 
modernize its workforce. By implementing creative, flexible, 
cost-effective, and sustainable strategies to protect public 
health and safeguard the environment, the EPA will target 
resources toward development of a workforce and infrastructure 
that can address current challenges and priorities.
    We are requesting funding in this budget to help us fast-
track efforts to save taxpayer dollars over the long term by 
optimizing and renovating critical agency space. That space 
includes laboratory buildings across the country, where we 
conduct critical scientific research on behalf of the American 
public. Since fiscal year 2, the EPA has released over 250,000 
square feet of office space nationwide, resulting in a 
cumulative annual rent avoidance of nearly $9.2 million across 
all appropriations. Additional planned consolidations and moves 
could release another 336,000 square feet of office space in 
the next several years.
    The agency will continue on-going work to improve processes 
and advance the E-Enterprise effort--replacing outdated paper 
processes for regulated companies with electronic submissions. 
The EPA's goals for process improvements are: leveraging 
technology, streamlining workflow, and improving data quality, 
and increasing data sharing and transparency. The agency also 
is making necessary investments to improve internal IT services 
to support productivity and address cybersecurity needs.
    In fiscal year 7, the EPA requests $3.3 million to expand 
Program Evaluation and Lean efforts as a part of the High 
Performing Organization Cross-Agency Strategy. We continue to 
eliminate non-value added activities to focus more directly on 
all tasks that support its mission of protecting public health 
and the environment.
    The EPA continues to examine its programs to find those 
that have served their purpose and accomplished their mission. 
The fiscal year President's Budget also eliminates some mature 
programs where State and local governments can provide greater 
capacity. Those grant programs are the Beaches Protection 
categorical grants, the Multi-purpose categorical grants, the 
Radon categorical grants, the Targeted Airshed grants and the 
Water Quality Research and Support grants, totaling $85 
million.
    We are committed to do the work that is necessary to meet 
our mission and protect public health. The EPA's fiscal year 
budget request will let us continue to make a real and visible 
difference to communities and public health every day. It will 
give us a foundation to revitalize the economy and improve 
infrastructure across the country. And it will sustain state, 
tribal, and Federal environmental efforts across all our 
programs.
    Mr. Chairman, I thank you for the opportunity to testify 
today. While my testimony reflects only some of the highlights 
of the EPA's fiscal year budget request, I look forward to 
answering your questions.
                                ------                                


          Responses by Gina McCarthy to Additional Questions 
                        from Senator Gillibrand

    Question 1. Administrator McCarthy, thank you for 
testifying here today, and for your continued leadership at the 
EPA to protect clean air and clean water, and address the 
urgent threats we face from climate change. The EPA has a 
critical responsibility to protect the health of our families; 
whether it is working to ensure that our children in the Bronx 
can go outdoors in the summer without fear of an asthma attack, 
or that families in UpState New York can swim and fish in our 
lakes, rivers and streams without fear of pollution by harmful 
runoff and algae blooms. While we still have much work to do to 
fully realize those goals, initiatives like the Clean Power 
Plan and the Clean Water Rule have helped us move the ball 
forward, and I continue to support those efforts.
    I would like to ask you about a 2 areas of concern I have 
that are specific to New York:
    As I am sure you are aware, EPA Region 2 has been working 
to address a situation in the Village of Hoosick Falls, in 
UpState New York, where drinking water has been contaminated by 
the chemical PFOA.
    A significant concern is that PFOA is an ``unregulated 
contaminant'' under the Safe Drinking Water Act, which limited 
the EPA's ability to respond to PFOA contamination, and led to 
an initially false assumption that the drinking water in 
Hoosick Falls was safe to drink, when it was in fact likely 
making people very sick. This is nothing short of an 
environmental disaster for the families who have been affected 
by PFOA contamination in their water.
    What would it take to reclassify PFOA so that it is 
regulated under the Safe Drinking Water Act?
    Response. The EPA is evaluating PFOA and PFOS as drinking 
water contaminants in accordance with the process required by 
the Safe Drinking Water Act (SDWA). To regulate a contaminant 
under SDWA, the EPA must find that the contaminant: (1) may 
have adverse health effects; (2) occurs frequently (or there is 
a substantial likelihood that it occurs frequently) at levels 
of public health concern; and (3) there is a meaningful 
opportunity for health risk reduction for people served by 
public water systems.
    The EPA included PFOA and PFOS among the contaminants for 
which water systems were required to monitor under the third 
Unregulated Contaminant Monitoring Rule (UCMR 3) in 2012. 
Results of this monitoring effort can be found on the publicly 
available National Contaminant Occurrence Data base (NCOD) at 
https://www.epa.gov/dwucmr/occurrence-data-unregulated-
contaminant-monitoring-rule#3, which is updated by the EPA 
approximately quarterly. In accordance with SDWA, the EPA will 
consider the occurrence data from UCMR 3, along with the peer 
reviewed health effects assessments supporting the PFOA and 
PFOS Health Advisories, to make a regulatory determination on 
whether to initiate the process to develop a national primary 
drinking water regulation.

    Question 2. Given the attention that has been placed on 
PFOA, and concerns that have been raised both in New York and 
other New England states about its prevalence in our region and 
potential health impacts, what additional steps can be taken to 
protect the public from PFOA?
    Response. The EPA established health advisories for PFOA 
and PFOS in May 2016 based on the agency's assessment of the 
latest peer-reviewed science in order to provide drinking water 
system operators and Federal, state, tribal and local 
officials, who have the primary responsibility for overseeing 
these systems, with information on the health risks of these 
chemicals. These advisories will help them take the appropriate 
actions to protect their residents. The EPA is committed to 
supporting states and public water systems as they determine 
the appropriate steps to reduce exposure to PFOA and PFOS in 
drinking water. As science on health effects of these chemicals 
evolves, the EPA will continue to evaluate new evidence.
    If past sampling data shows that drinking water contains 
combined PFOA and PFOS at individual or combined concentrations 
greater than 70 parts per trillion, water systems should:

     Quickly undertake additional sampling to assess the 
level, scope and localized source of contamination to inform 
next steps;

    If water sampling results confirm that drinking water 
contains PFOA and PFOS at individual or combined concentrations 
greater than 70 parts per trillion, the agency recommends that 
water systems:

     Promptly notify their State drinking water safety agency 
(or the EPA in jurisdictions for which the EPA is the primary 
drinking water safety agency);
     Consult with the relevant agency on the best approach to 
conduct additional sampling;
     Provide consumers with information about the levels of 
PFOA and PFOS in their drinking water, including specific 
information on the risks to fetuses during pregnancy and 
breastfed and formula-fed infants; and
     Identify options that consumers may consider to reduce 
risk, such as seeking an alternative drinking water source, or 
in the case of parents of formula-fed infants, using formula 
that does not require adding water.

    A number of options are available to drinking water systems 
to lower concentrations of PFOA and PFOS in its drinking water 
supply. In some cases, drinking water systems may be able to 
reduce concentrations of perfluoraklyl substances, including 
PFOA and PFOS, by closing contaminated wells or changing rates 
of blending of water sources. Alternatively, public water 
systems can treat source water with activated carbon or high 
pressure membrane systems (e.g., reverse osmosis) to remove 
PFOA and PFOS from drinking water. These treatment systems are 
used by some public water systems today, but should be 
carefully designed and maintained to ensure that they are 
effective for treating PFOA and PFOS. In some communities, 
entities have provided bottled water to consumers while steps 
to reduce or remove PFOA or PFOS from drinking water, or 
establish a new water supply, were completed.


                             hoosick falls


    Question 3. On February 1st, I wrote to Region 2 Regional 
Administrator Judith Enck, asking the EPA to expedite the 
process for listing Hoosick Falls as a Federal Superfund site. 
Will you commit to me that you will personally ensure that this 
process moves as quickly as possible and that EPA will be 
aggressive in ensuring that the contamination is remediated?
    Response. Addressing the contamination in the Village of 
Hoosick Falls is a high priority for the EPA. We are currently 
gathering information needed to evaluate the site for inclusion 
on the National Priorities List of Superfund sites. We also are 
conducting investigations to identify the parties responsible 
for the contamination. We are working actively with both the 
New York State Department of Health and New York State 
Department of Environmental Conservation to coordinate our 
respective investigative and remedial efforts to ensure that 
accurate information is provided to the public and to 
effectively address the contamination problem.


                              hudson river


    Question 4. What purpose does it serve for the EPA to 
release a white paper dismissing data presented NOAA which has 
a responsibility for the Hudson River a Federal Trustee--before 
your agency even begins its 5 year review?
    Response. The EPA's white paper presents a thorough, 
detailed, scientific evaluation of a scientific article 
authored by National Oceanographic and Atmospheric 
Administration (NOAA) scientists. In the EPA paper, the agency 
does not dismiss any data, but instead, identifies and 
addresses important and more recent data that NOAA did not 
consider in its analysis. In that analysis, NOAA concluded that 
the dredging project's goals would not be achieved for decades 
longer than the EPA had predicted in 2002, the year the EPA 
selected the cleanup action. In the EPA's white paper, the 
agency presents its conclusion that, based on more recent data, 
as well as other factors, the project is on a trajectory of 
environmental improvement consistent with the EPA's prediction 
14 years ago.
    In the white paper and publically, the EPA has been careful 
to define ``project success'' in terms of accomplishing the 
planned dredging/mass removal and that, following the agency's 
recent comprehensive review, we do not have any information to 
indicate otherwise. Therefore, we can move forward to the 
project's monitored natural recovery phase. The EPA has 
acknowledged that PCBs remain in the river and supports the 
Trustees' efforts to address such potential injury through the 
Natural Resource Damage (NRD) assessment and claims process. 
The EPA will continue to cooperate and communicate with Federal 
and State natural resource trustees on the Hudson River 
remediation.


                    hudson river-restore and protect


    Question 5. Will you ensure that all relevant evidence and 
data is evaluated during the course of the 5 year review, and 
that the Federal Trustees have a seat at the table so that EPA 
can work with them cooperatively to ensure that we are doing 
everything possible to fully restore and protect the Hudson 
River?
    Response. Yes, we are working closely with all the 
stakeholders to ensure a thorough Five-Year Review (FYR). The 
stakeholders, including the Federal Trustees, New York State 
Department of Environmental Conservation and Department of 
Health, the Community Advisory Group, and non-governmental 
organizations have been invited to be part of the FYR team.

          Responses by Gina McCarthy to Additional Questions 
                          from Senator Inhofe


                     ozone implementation guidance


    Question 1. EPA is required to issue ozone implementation 
guidance. However, despite 90 percent of the states that 
commented on the proposed standard requested EPA propose an 
implementation rule at the time the Agency finalized the 
standard, EPA will not propose an implementation rule until 
October 2016. Yet, we know EPA is dedicating air office 
officials toward the stayed-Clean Power Plan-related 
activities. Why are you not doing something 90 percent of 
states commenting, reflecting a bipartisan consensus, 
requested, rather than pursuing actions that are legally 
vulnerable and being challenged by more than half the states?
    Response. Concurrent with promulgation of the final revised 
NAAQS, the EPA also issued an implementation memo (https://
www.epa.gov/sites/production/files/2015-10/documents/
implementation--memo.pdf) describing rules and guidance that 
remain current and applicable to the revised standards, and 
updates that the agency expects to complete for states to use 
in planning for the revised NAAQS. The EPA and State co-
regulators share a long history of managing ozone air quality 
under the Clean Air Act (CAA), underpinned by a wealth of 
previously issued rules and guidance. The EPA is committed to 
helping air agencies identify and take advantage of potential 
planning and emissions control efficiencies that may occur 
within the horizon for attaining the 2015 standards.
    Addressing carbon pollution is also a part of the agency's 
obligations under the Clean Air Act. Since the Supreme Court 
stayed the Clean Power Plan (CPP) pending judicial review 
before the U.S. Court of Appeals for the D.C. Circuit and any 
subsequent proceedings in the Supreme Court, many states have 
said they intend to move forward voluntarily to continue to 
work to cut carbon pollution from power plants and are seeking 
the agency's guidance and assistance. The agency will be 
providing such assistance, which is not precluded by the stay. 
In particular, some states have asked to move forward with 
outreach and to continue providing support and developing 
tools, including the proposed design details for the Clean 
Energy Incentive Program (CEIP). The agency will move forward 
in a way that is consistent with the stay while providing 
states the tools they have asked for to help address carbon 
pollution from power plants.


          clean air scientific advisory committee-nominations


    Question 2. Administrator McCarthy, as you know, I have 
long been concerned about the integrity of the selection 
process for nominations to the Clean Air Scientific Advisory 
Committee (CASAC) and the Science Advisory Board (SAB). I was 
surprised to learn in response to my February 2, 2016, letter 
on the most recently appointed members of CASAC that each of 
those selected were nominated not by the public, rather, they 
were all nominated by the EPA or an EPA designated Federal 
officer. Essentially, anyone nominated by an individual outside 
of the agency's network was not selected. Are you concerned by 
this finding? What is the point of soliciting public 
nominations if the EPA only selects those internally appointed?
    Response. The EPA has policies and procedures that meet and 
exceed what is required by law, in order to assure expert and 
independent advice from our advisory committees. For example, 
although not required by law, the EPA provides the general 
public the opportunity to nominate candidates for the CASAC. 
The agency believes this more open nominations process expands 
the breadth and diversity of its applicant pool. In selecting 
members for the CASAC, the agency evaluates the qualifications 
and experience of all candidates without regard to whether 
individuals are nominated by the public or identified through 
staff outreach.


                science advisory board-policy statement


    Question 3. Administrator McCarthy, as part of the fiscal 
year omnibus, EPA was required to develop a policy statement 
for its Science Advisory Board, which would include goals on 
increasing membership from states and tribes, as well as update 
its conflict of interest policy. This was to be submitted to 
GAO for review last month. I understand it is still 
outstanding. What is the reason for delay and when does the 
Agency plan to submit this policy statement?
    Response. The agency has developed a draft policy statement 
for the Science Advisory Board (SAB) and the Clean Air 
Scientific Advisory Committee (CASAC) that describes how the 
EPA implements the Federal Advisory Committee Act (FACA), 
Federal ethics regulations, and agency policies for scientific 
integrity and peer review applicable to these advisory 
committees. The agency remains committed to the goal of 
including a diversity of scientific perspectives on the SAB and 
the CASAC, including the perspectives of scientists from State 
and local governments, tribes, industry, and nongovernmental 
organizations. The draft policy statement is currently 
undergoing final internal review and should be provided to the 
GAO in the coming weeks. The agency takes seriously the 
requirements for transparency, independence and balance of its 
advisory committees, including the SAB and the CASAC. The EPA 
frequently goes above and beyond the requirements of FACA to 
ensure that the SAB and the CASAC advisory processes are open 
and transparent, and applies Federal ethics regulations to 
members of these committees.


                           gao recommendation


    Question 4. Administrator McCarthy, last May GAO issued a 
report on the SAB entitled, ``EPA's Science Advisory Board: 
Improved Procedures Needed to Process congressional Requests 
for Scientific Advice,'' that included four recommendations--
all of which remain unimplemented. What is the reason for delay 
in fulfilling these recommendations?
    Response. In the June 2015 report, EPA's Science Advisory 
Board: Improved Procedures Needed to Process congressional 
Requests for Scientific Advice (GAO 15-500), the Government 
Accountability Office (GAO) recommended that the agency clarify 
procedures for reviewing congressional committee requests to 
the SAB to determine which questions should be taken up by the 
SAB and criteria for evaluating such requests. The agency 
agreed with those recommendations and is developing a process 
for considering requests for the SAB advice from the 
congressional committees listed in the SAB's authorizing 
statute (the Environmental Research, Development and 
Demonstration Authorization Act, ERDDAA). The draft process is 
undergoing final internal review and should be finalized in the 
coming weeks. In addition to developing a written process for 
evaluating congressional requests for the SAB advice, the 
agency is considering whether amendments to the SAB charter 
also would be helpful to clarify how congressional requests for 
the SAB advice will be handled.


                              sip backlog


    Question 5. At a March 9 full committee hearing with State 
environmental regulators, we received testimony that EPA has 
increasingly issued Federal implementation plans while 
simultaneously slow-walking review of State implementation 
plans. Although I understand EPA has made some progress in 
addressing the SIP backlog, can you please provide the 
Committee a breakdown of the status of EPA's work toward 
reducing the SIP backlog?
    Response. The EPA has been working with states since 2013 
on plans to reduce the State Implementation Plan (SIP) backlog 
and address the states' priority SIPs. This work has resulted 
in 4-year plans developed with states to substantially reduce 
the historic backlog of SIPs by the end of 2017. Steady and 
substantial progress has been made over the last several years 
through the EPA and the states working together. An important 
part of the agency's joint effort with the states is ongoing 
discussions between the regions and states to identify which 
SIPs the states prioritize for action. The EPA has acted on 
hundreds of pending SIPs in each of the last several years.


                national academy of sciences review-scc


    Question 6. In July 2015, the EPA, as part of the 
Interagency Working Group on the Social Cost of Carbon (SCC), 
requested the National Academy of Sciences review the SCC. How 
much funding for NAS's review has EPA committed?
    Response. At the request of the Interagency Working Group 
(IWG) on the Social Cost of Carbon, co-chaired by the White 
House's Office of Management and Budget (OMB) and Council of 
Economic Advisors (CEA), the National Academies of Sciences, 
Engineering and Medicine convened a Committee on ``Assessing 
Approaches to Updating the Social Cost of Carbon.'' This is an 
interagency sponsored project, with contributions coming from 
the EPA as well as the Departments of Commerce, Energy, 
Interior, and Transportation. The Department of Energy (DOE) is 
serving as the coordinating agency for the contract.


                          multipurpose grants


    Question 7. For fiscal year Congress appropriated $21 in 
multipurpose grants to states and tribes, which EPA requested 
zero funding for in its fiscal year budget request. Can you 
please explain the reason for eliminating funds for this 
program? In early April, EPA released its formula for 
disbursing the grants, with more than 60 percent going to 
``core air regulatory work;'' yet Congress stipulated the 
grants were to provides ``states and tribes to have the 
flexibility to direct resources.'' How does EPA's formula 
provide states and tribes flexibility to use these grants?
    Response. The EPA formula provides flexibility to states 
within both funding focus areas. First, states have latitude to 
decide what air activities to fund with the air portion of 
their funding. The second part of a state's funding is 
available for priority activities identified by individual 
states under any existing continuing environmental program. For 
both focus areas, State identified activities must fall under 
existing Federal environmental statutes consistent with the 
language included in the fiscal year appropriations. 
Additionally, states have the flexibility to fund these 
activities under a Performance Partnership Grant (PPG) or new 
standalone multipurpose grant. The fiscal year President's 
Budget request included increases for several grants to states 
and tribes, including $40 million for State and local air 
quality management grants, $30.9 million for Tribal General 
Assistance Program grants, $15.7 million for Environmental 
Information grants, and $15.4 million for pollution control 
(section

          Responses by Gina McCarthy to Additional Questions 
                          from Senator Rounds


                       epa regulations-resources


    Question 1. We have held several hearings in which State 
and local officials have come to testify about the challenges 
of implementing EPA regulations on a limited budget with 
limited resources. This is particularly problematic in South 
Dakota, where the Department of Environment and Natural 
Resources is a small staff with a limited budget and is 
required to oversee the implementation and compliance with 
State and Federal regulations. Although we have repeatedly 
heard your agency say that there are resources to help states 
comply with regulations, I am increasingly concerned with the 
amount of what I consider to be unfunded mandates coming out of 
your agency.
    Again, although you have said there are resources to help 
states comply with EPA regulations, I have heard time and time 
again that this is not the case as these limited resources are 
spread out among all of the states. What do you tell states who 
are repeatedly telling you that they simply don't have the 
resources to comply with these vast, comprehensive EPA 
regulations?
    Response. Supporting our State partners, the primary 
implementers of environmental programs on the ground, is a 
long-held priority of the EPA. Funding to states and tribes in 
the State and Tribal Assistance Grants (STAG) account continues 
to be the largest percentage of the agency's budget, at 39.7 
percent in fiscal year 7. This percentage excludes resources 
the EPA provides to states and tribes via cooperative 
agreements, interagency placement assignments, and other 
vehicles from the agency's operating accounts (e.g., Leaking 
Underground Storage Tanks, Superfund, and Environmental 
Programs and Management). This reflects the agency's 
recognition of and commitment to supporting our partners and 
leveraging limited resources to oversee the implementation of 
and compliance with EPA regulations. In fiscal year 7, the EPA 
will continue to modernize the business of environmental 
protection through the E-Enterprise strategy jointly governed 
by states and the EPA. Under the E-Enterprise strategy, the 
agency will continue to streamline its business processes and 
systems to reduce reporting burden on states and regulated 
facilities, and improve the effectiveness and efficiency of 
regulatory programs for the EPA, states, and tribes.


                    epa regulations-state compliance


    Question 2. We have held several hearings in which State 
and local officials have come to testify about the challenges 
of implementing EPA regulations on a limited budget with 
limited resources. This is particularly problematic in South 
Dakota, where the Department of Environment and Natural 
Resources is a small staff with a limited budget and is 
required to oversee the implementation and compliance with 
State and Federal regulations. Although we have repeatedly 
heard your agency say that there are resources to help states 
comply with regulations, I am increasingly concerned with the 
amount of what I consider to be unfunded mandates coming out of 
your agency.
    Do you plan to do anything more to help states comply with 
current and future EPA regulations?
    Response. The fiscal year President's Budget includes an 
increase of $40 million for State grants to assist with 
implementation of climate and air quality programs, as well as 
$15.4 million for State and tribal grants to assist with 
implementation of water quality programs. The request also 
includes an additional $15.7 million for grants to states and 
tribes to build tools, services, and capabilities that will 
enable greater exchange of data for delegated programs between 
states, tribes, regulated entities, and the EPA following E-
Enterprise principles. Leveraging technology will enable the 
EPA, states, and tribes to move from a heavily paper-based 
evidence gathering process to a digitally based rapid 
electronic process. The vision is to better identify patterns 
of problems, be more efficient and effective in data collection 
and records management, increase transparency on programmatic 
and compliance status and allow for quicker responses where 
appropriate.


                       regulatory impact analyses


    Question 3. Last year the Subcommittee on Superfund, Waste 
Management, and Regulatory Oversight held a hearing on EPA's 
use of Regulatory Impact Analyses (RIA's) and the cost and 
benefit of EPA regulations. At the hearing we discussed a July 
2014 GAO report that offered several recommendations for how 
EPA could improve adherence to OMB guidance, enhance the 
accuracy of RIA's and better monetize the cost and benefits of 
RIA's.
    I am concerned that EPA continued to promulgate major, 
costly regulations, such as WOTUS and the Clean Power Plan, 
without fully implementing GAO's recommendations. I understand 
these recommendations are still open, when can we expect they 
will be fully implemented?
    Response. In its recent update on these recommendations 
(http://www.gao.gov/products/GAO-14-519), the GAO has closed 
one recommendation, recognizing that the EPA has implemented 
it. On other recommendations, the GAO notes that ``EPA is 
making progress in the spirit of'' these recommendations but 
has not closed them given the longer-term nature of these 
efforts.


                 regulatory impact analyses-reliability


    Question 4. Last year the Subcommittee on Superfund, Waste 
Management, and Regulatory Oversight held a hearing on EPA's 
use of Regulatory Impact Analyses (RIA's) and the cost and 
benefit of EPA regulations. At the hearing we discussed a July 
2014 GAO report that offered several recommendations for how 
EPA could improve adherence to OMB guidance, enhance the 
accuracy of RIA's and better monetize the cost and benefits of 
RIA's.
    How do you explain the reliability of recent EPA 
regulations, if they were promulgated through a process that 
GAO specifically suggested might not be entirely accurate and 
needed improvement?
    Response. While the GAO made recommendations to improve the 
agency's process, there was not a finding of systematic 
deficiencies with respect to the accuracy of the analytical 
work. The EPA regulations have been developed in accordance 
with all applicable requirements, including those of Executive 
Orders 12866 and 13563 and the guidelines of OMB Circular A-4. 
The EPA relies on the best available information to calculate 
both the costs and benefits of rules and further refines these 
analyses through the interagency and public comment processes. 
In addition, the EPA maintains a public docket where all of the 
underlying documentation for each RIA is available. Further, 
consistent with E.O. 12866, the RIAs developed for economically 
significant regulations are reviewed by OMB and undergo an 
interagency review process before being released for public 
notice and comment.


                 epa regulations-small business impacts


    Question 5. Last month, the Subcommittee on Superfund, 
Waste Management, and Regulatory Oversight hosted a hearing on 
small business impacts from EPA regulations, and we received 
testimony regarding a number of instances where the EPA has 
disagreed with the Office of Advocacy's recommendations on a 
particular rulemaking. Our witnesses testified that there is no 
mechanism in the law that reconciles these differences between 
the EPA and the Office of Advocacy. I asked at the hearing for 
you to share how you view the Office of Advocacy's 
recommendations and how seriously you consider these 
recommendations throughout the rulemaking process, to which you 
said you do take Advocacy's comments into account. However, 
there are many instances where the Agency, in fact, takes 
action against Advocacy's recommendation.
    Do you think a third party arbiter would help reconcile 
differences between EPA and Advocacy?
    Response. The agency considers all comments received as 
part of a rulemaking process, including information received 
from the public as well as through the interagency process. The 
views of small businesses are taken into account through 
various means in the process, including participation by the 
Small Business Administration in the interagency review process 
run by the Office of Management and Budget. In addition, as 
part of its Regulatory Flexibility Analysis for a rulemaking, 
the agency responds to comments filed by the Office of 
Advocacy. The agency describes steps taken to minimize impacts 
on small businesses and other small entities, and provides an 
explanation of why any significant alternatives considered by 
the agency that affect the impacts on small entities were not 
adopted in the rule.


                       regulatory flexibility act


    Question 6. At the same subcommittee hearing, we received 
testimony that there are opportunities for EPA to increase 
transparency with its implementation of the Regulatory 
Flexibility Act. For example, one witness testified that EPA 
could make its final SBREFA report public at the time complete 
rather than waiting until a rule is issued, something OSHA 
already does with its SBREFA reports.
    Why does EPA wait until a rule is issued to release its 
SBREFA report? Don't you think the public and regulated 
entities, such as small businesses, would benefit from the 
report being made publicly available as soon as complete? Will 
you commit to making these reports public when complete moving 
forward?
    Response. A completed SBREFA report is one of the support 
documents used by the agency in developing a proposed rule, and 
is provided to the Administrator so that its recommendations 
may be considered during the development of the rule. The 
report is made public when the proposed rule is released for 
public comment, consistent with all applicable requirements. 
Small entity representatives provide key input to the Federal 
participants in the Small Business Advocacy Review Panel, who 
then develop recommendations to the Administrator on how best 
to achieve the goals of the RFA. Because the Panel Report is a 
key element of the administrative record for the proposed rule, 
it is placed in the rulemaking docket at the time the proposed 
rule is published. Comments on the report are then considered 
in development of a final rule.


                       regulatory flexibility act


    Question 7. The courts have held agencies are not required 
to consider indirect or secondary impacts of a rule for 
purposes of the Regulatory Flexibility Act. However, I 
understand that the compliance burden is on the states, but 
often small businesses are significantly indirectly impacted by 
regulations, regardless of who has the burden of complying with 
the regulations.
    Do you believe indirect impacts on small businesses should 
be considered and do you think a rulemaking would benefit from 
greater small business input early in the rule development 
process?
    Response. In addition to the requirements of the Regulatory 
Flexibility Act, the agency frequently undertakes many types of 
public outreach, including outreach to small businesses, during 
the development of its rules. For example, the agency may hold 
public meetings early in the rule development process. 
Frequently, agency offices, including the regional offices, 
hold meetings with stakeholders including small businesses. The 
information gained from this engagement informs the rulemaking 
process by providing input from various stakeholders. In 
addition to the public and stakeholder meetings, the agency has 
other mechanisms in place to ensure that the views of small 
businesses can be incorporated into the agency's decisionmaking 
processes. One such example is that the EPA's Deputy 
Administrator holds periodic meetings with small businesses to 
discuss regulatory topics suggested by and of interest to small 
businesses. The EPA also has an Asbestos and Small Business 
Ombudsman that advocates for small business during the EPA 
rulemaking process.

          Responses by Gina McCarthy to Additional Questions 
                          from Senator Wicker


                       watershed trading program


    Question 1. Do you think EPA needs to do more to allow 
watershed trading to occur?
    Response. The EPA has taken many important steps to support 
efforts by states and other stakeholders to pursue water 
quality trading consistent with the Clean Water Act.
    To date, the EPA has authorized forty-six states to run 
their own National Pollutant Discharge Elimination System 
(NPDES) programs. State permitting authorities (or the EPA in 
unauthorized states) can establish water quality trading 
programs, based on their unique regulatory structure as well as 
stakeholder and environmental needs. The primary demand-side 
driver for nutrient trading is the existence of a new or more 
stringent water quality based effluent limit for nutrients in a 
point source's NPDES permit. States usually include such water 
quality-based effluent limits in NPDES permits following State 
establishment of a nutrient TMDL, or State determination of 
``reasonable potential'' for the NPDES permittee's discharge. 
Without this permit driver in place, there has been little 
demand for nutrient reduction credits.
    Roughly one third of states have had water quality trades 
in their state. Each State with a trading program has developed 
its own unique trading rules. Some states have enacted statutes 
or regulations that authorize and regulate their statewide 
trading programs, such as Connecticut, Virginia, and Ohio. 
Other states authorize trading on a case-by-case basis through 
watershed-specific or individual NPDES permits, such as North 
Carolina's Neuse River Compliance Association trading program. 
Other states, such as Arkansas and Louisiana, are considering 
developing water quality trading programs. Many of the states 
with active trading programs, such as Pennsylvania and Oregon, 
allow NPDES permit holders to attain their nutrient water 
quality-based effluent limits through the purchase of nonpoint 
source nutrient reduction credits.
    As demand drivers increase, we anticipate water quality 
trading to increase as a flexible method for meeting those 
regulatory requirements. The EPA looks forward to continuing 
its work with states and other stakeholders interested in 
pursuing these approaches.


               watershed trading program-clean water act


    Question 2. EPA allows some non-point source nutrient 
reduction initiatives under EPA's watershed trading program, 
but there is no usable process to allow this to occur.
    Are legislative changes to the Clean Water Act necessary to 
make watershed trading usable?
    Response. The Clean Water Act provides sufficient authority 
for the EPA to implement its water quality trading policy. The 
EPA's 2003 Water Quality Trading Policy encourages states, 
interState agencies and tribes to develop and implement water 
quality trading programs consistent with the Clean Water Act 
(CWA) and its implementing regulations for nutrients, sediments 
and other pollutants (with some exceptions) where opportunities 
exist to achieve water quality improvements at reduced costs. 
One of the EPA's roles under its CWA oversight authority is to 
ensure that any such water quality trading programs are 
consistent with the CWA and its implementing regulations. The 
EPA is working with states and interested stakeholders to 
educate and assist them regarding their options for 
establishing water quality trading programs.


                     disinfection by-products rules


    Question 3. Are Tier 2 public notices (PN) for the EPA 
disinfection by-products rules eligible for electronic 
reporting or annual notice (similar to Tier 3 PNs)?
    Response. Tier 2 notices require notice within 30 days of 
the violation and subsequent notice every 3 months for as long 
as the violation continues. Annual notices are not an option. 
Tier 2 requires mail or direct delivery with the bill and a 
method to notify those who do not receive a bill or do not have 
service connection addresses (such as renters, apartments, 
nursing homes, etc.). Posting on the internet is allowed as one 
of the methods to reach those consumers. In addition, systems 
might be required to use other methods to reach consumers who 
might not see a posted notice in a school, library, or other 
commercial/public buildings.


                       national radon action plan


    Question 4. In your testimony on April 19, you stated that 
the National Radon Action Plan (NRAP) will replace the Federal 
Radon Action Plan (FRAP). The major differences between FRAP 
and NRAP are that NRAP has no dedicated funding plan like the 
State Indoor Radon Grant (SIRG) program and the major 
responsibilities are pushed to the states and private sector.
    How will NRAP be successful without Federal funding and 
active Federal leadership?
    Response. In fiscal year 6, the EPA closed out the Federal 
Radon Action Plan and launched a broader plan, the National 
Radon Action Plan (NRAP). This plan was endorsed by nine non-
governmental organizations and three Federal agencies. The EPA 
will continue to lead the Federal Government's response to 
radon and continue to implement the agency's own multi-pronged 
radon program. With funding requested in fiscal year through 
the agency's indoor air program, the EPA will encourage radon 
risk reduction as a normal part of doing business in the real 
eState marketplace, will promote local and State adoption of 
radon prevention standards in building codes, and will 
participate in the development of national voluntary standards 
(e.g., mitigation and construction protocols) for adoption by 
states and the radon industry


                national radon action plan--sirg program


    Question 5. In your testimony on April 19, you stated that 
the National Radon Action Plan (NRAP) will replace the Federal 
Radon Action Plan (FRAP). The major differences between FRAP 
and NRAP are that NRAP has no dedicated funding plan like the 
State Indoor Radon Grant (SIRG) program and the major 
responsibilities are pushed to the states and private sector.
    Is there a plan or need to create a SIRG program within 
NRAP to make it successful?
    Answer: In fiscal year 6, the EPA closed out the Federal 
Radon Action Plan and launched a broader plan, the National 
Radon Action Plan (NRAP). This plan was endorsed by nine non-
governmental organizations and three Federal agencies. The EPA 
will continue to lead the Federal Government's response to 
radon and continue to implement the agency's own multi-pronged 
radon program. With funding requested in fiscal year through 
the agency's indoor air program, the EPA will encourage radon 
risk reduction as a normal part of doing business in the real 
eState marketplace, will promote local and State adoption of 
radon prevention standards in building codes, and will 
participate in the development of national voluntary standards 
(e.g., mitigation and construction protocols) for adoption by 
states and the radon industry.


                    state indoor radon grant program


    Question 6. You justified EPA's cuts in funding for SIRG in 
part by saying that SIRG funding to some states has not been 
very effective.
    Can EPA modify the grant allocation to make SIRG more 
effective? Please comment and assess ways to improve SIRG 
rather than eliminate it.
    Response. Reducing radon related deaths continues to be a 
priority for the EPA and the Administration. From 1990 to 2013, 
the estimated number of homes needing mitigation (i.e., having 
radon levels at or above 4 picocuries per liter (pCi/L) and no 
mitigation system) increased by 14 percent; from about 6.2 
million to 7.1 million homes. During the same period, the 
number of homes with operating mitigation systems increased by 
more than 700 percent from 175,000 to 1,245,000 homes.
    For over 25 years, the EPA has provided Federal funding to 
states and technical support to transfer best practices among 
states that promote effective program implementation across the 
Nation. Section 306 of the Indoor Radon Abatement Act (IRAA) 
authorizes radon grant assistance to states, as defined by the 
Toxic Substances Control Act (TSCA) Title III. The EPA has 
targeted this funding to support states with the greatest 
populations at highest risk. In future years, the EPA will 
continue to promote partnerships between national 
organizations, the private sector, and more than 50 state, 
local, and tribal governmental programs to achieve radon risk 
reduction.


         state indoor radon grant program--radon professionals


    Question 7. If SIRG is eliminated, will EPA undertake and 
maintain the State listings of certified radon professionals?
    Response. In fiscal year 7, the EPA will continue providing 
consumers with information and guidance on locating qualified 
radon measurement and mitigation services professionals. The 
EPA's website (https://www.epa.gov/radon/find-radon-test-kit-
or-measurement-and-mitigation-professional#who) contains 
information regarding radon credentialing programs, listings 
for State radon program contacts and general indoor air quality 
information. In addition, most states provide information about 
qualified radon service providers and many states have some 
form of radon requirements for radon service providers.
    Forty-five states requested and received State Indoor Radon 
Grants (SIRGs) funding this past fiscal year. In the absence of 
SIRG, states would depend on their own funds to continue 
investment in radon programs. States receiving Federal SIRG 
funds are required to provide a 40 percent match. Many states 
provide this through in-kind matches (non-monetary resources), 
others through appropriated funds. This would be the starting 
place for states to consider whether they would fund State 
programs in the absence of SIRG funds. A number of states have 
developed additional radon funding mechanisms through State 
licensing or mitigation system installation fees.


              state indoor radon grant program--consumers


    Question 7. How will the agency ensure that consumers are 
not subject to fraud from uncertified professionals using 
equipment that may not be calibrated and traceable to a radon 
standard or a radon decay product standard, particularly in 
non-regulated states?
    Answer: In fiscal year 7, the EPA will continue providing 
consumers with information and guidance on locating qualified 
radon measurement and mitigation services professionals. The 
EPA's website (https://www.epa.gov/radon/find-radon-test-kit-
or-measurement-and-mitigation-professional#who) contains 
information regarding radon credentialing programs, listings 
for State radon program contacts and general indoor air quality 
information. In addition, most states provide information about 
qualified radon service providers and many states have some 
form of radon requirements for radon service providers.
    Forty-five states requested and received State Indoor Radon 
Grants (SIRGs) funding this past fiscal year. In the absence of 
SIRG, states would depend on their own funds to continue 
investment in radon programs. States receiving Federal SIRG 
funds are required to provide a 40 percent match. Many states 
provide this through in-kind matches (non-monetary resources), 
others through appropriated funds. This would be the starting 
place for states to consider whether they would fund State 
programs in the absence of SIRG funds. A number of states have 
developed additional radon funding mechanisms through State 
licensing or mitigation system installation fees.


            state indoor radon grant program--state grantees


    Question 8. Please provide a list of State grantees and 
indicate which states are likely to continue their current 
investment in radon in the absence of Federal SIRG funding.
    Answer: In fiscal year 7, the EPA will continue providing 
consumers with information and guidance on locating qualified 
radon measurement and mitigation services professionals. The 
EPA's website (https://www.epa.gov/radon/find-radon-test-kit-
or-measurement-and-mitigation-professional#who) contains 
information regarding radon credentialing programs, listings 
for State radon program contacts and general indoor air quality 
information. In addition, most states provide information about 
qualified radon service providers and many states have some 
form of radon requirements for radon service providers.
    All states with the exception of New Hampshire, Maryland, 
Hawaii, Arkansas, and Louisiana requested and received State 
Indoor Radon Grants (SIRGs) funding this past fiscal year. In 
the absence of SIRG, states would depend on their own funds to 
continue investment in radon programs. States receiving Federal 
SIRG funds are required to provide a 40 percent match. Many 
states provide this through in-kind matches (non-monetary 
resources), others through appropriated funds. This would be 
the starting place for states to consider whether they would 
fund State programs in the absence of SIRG funds. A number of 
states have developed additional radon funding mechanisms 
through State licensing or mitigation system installation fees.


                            radon risk maps


    Question 9. The last Federal surveys and State radon 
mapping occurred nearly three decades ago. Several states have 
updated State risk data with their own maps that show a larger 
risk than initial assessments. Does EPA have any plans to 
update the EPA radon risk maps?
    Response. In fiscal year 7, the EPA will continue to 
maintain its map of radon zones aimed at assisting national, 
State and local governments, and private organizations to 
target their resources to implement radon-resistant building 
codes. Please visit https://www.epa.gov/radon/find-information-
about-local-radon-zones-and-state-contact-information#radonmap 
for more information. The agency continues to recommend that 
this map be supplemented with any new data vetted by the states 
in order to further understand and predict the radon potential 
for specific areas and counties. This approach is captured in 
new consensus-based private sector radon standards under 
development by the radon industry's standards consortium.


                               ecolabels


    Question 10. The US Green Building Council recently 
announced the LEED green building rating system will now award 
credit for forest products certified to the SFI and ATFS 
standards. I understand that the EPA is re-examining its 
interim recommendations regarding the use of environmental 
standards and labels in Federal procurement for lumber.
    Can you please tell me what your agency is doing to 
reconsider your recommendation and ensure that it appropriately 
recognizes other credible standards like Sustainable Forestry 
Initiative (SFI) and the American Tree Farm System (ATFS)?
    Response. The EPA is seeking clarification from the U.S. 
Green Building Council (USGBC) on whether the LEED Alternative 
Compliance Pathway that awards credit for forest products 
certified to the Sustainable Forestry Initiative (SFI) and 
American Tree Farm System (ATFS) standards sufficiently 
addresses environmental criteria or if it is focused more 
narrowly on legality of harvesting.
    The Implementing Instructions for Executive Order 13693--
Planning/or Federal Sustainability in the Next Decade--directed 
the EPA, in consultation with the Office of Management and 
Budget and the Council on Environmental Quality, to issue these 
recommendations to assist Federal purchasers in identifying and 
procuring environmentally sustainable products. The basis for 
our interim recommendations on wood/lumber was the DOE GreenBuy 
Program. The EPA is pursuing several options to determine if an 
update to the lumber/wood interim recommendations is 
appropriate, and has updated the website to reflect this (see 
the footnote for Lumber/Wood under the Construction sector at 
https://www.epa.gov/greenerproducts/epas-recommendations-
specifications-standards-and-ecolabels).
    The EPA is engaging with both the Department of Energy and 
the U.S. Department of Agriculture in a high-level review to 
determine the effectiveness of these standards in protecting 
human health and the environment. Furthermore, the EPA's 
standards executive is currently reviewing the forestry 
standards to determine if they were developed through a 
voluntary consensus approach consistent with the National 
Technology Transfer and Advancement Act (NTTAA) and OMB 
Circular A-119. Finally, SFI, ATFS, Canadian Standards 
Association (CSA) and Forest Stewardship Council (FSC) have 
each volunteered to have their forestry standards assessed 
against the criteria developed through a multi-stakeholder 
consensus process in the guidelines pilot for the flooring and 
furniture sectors. The results of that pilot assessment can 
help inform whether those standards would meet the EPA's 
baseline criteria for environmental performance as specified in 
the EPA's draft guidelines for Environmental Performance 
Standards and Ecolabels for use in Federal procurement.


                   ecolabels--interim recommendations


    Question 11. The US Green Building Council recently 
announced the LEED green building rating system will now award 
credit for forest products certified to the SFI and ATFS 
standards. I understand that the EPA is re-examining its 
interim recommendations regarding the use of environmental 
standards and labels in Federal procurement for lumber.
    Can you give me an assurance that you will move quickly 
with this review and provide a timeline when a decision will be 
made?
    Response. The EPA will consider the input received from 
other Federal agencies, stakeholders, and experts, along with 
information obtained during our assessment of forestry 
standards during the pilot process, to inform the further 
refinement and finalization of the EPA's guidelines and 
recommendations. The agency believes it can decide on a path 
forward within the next several months.

    Senator Inhofe. Thank you, Madam Administrator.
    First of all, in light of what is going on right now, you 
have the Supreme Court and their stay is taking place on the 
Clean Power Plan. I wrote EPA a letter on March the 10th on 
this topic, but the response received yesterday doesn't really 
answer the question, I don't believe.
    EPA's letter states that it will not need to submit initial 
plans by September 6th of 2016, as initially stated. But it 
doesn't say about after that, because in 2018 it would seem to 
me that as long as the stay is there, and, of course, it is 
going to be there until all the legal problems are cleared up, 
27 States, including my State of Oklahoma, is suing you at this 
time.
    So it is going to be at least probably 2018. Now, 2018 
happens to be the deadline of the final. Now, is that deadline 
going to be delayed also, the same as the deadline for the 
beginning that would have taken place on September the 6th?
    Ms. McCarthy. Well, Senator, what we do know is that the 
implementation of the rule is currently stayed. The Supreme 
Court didn't actually speak to any of the tolling issues 
regarding the compliance requirements. We certainly know that 
the issue will not be resolved by this coming October and 
September. Beyond that, the courts are going to have to speak 
to that issue when decisions are made.
    Senator Inhofe. But as far as deadlines, you have these 
people out there right now looking at deadlines in different 
States, different counties, the private sector. Are you saying 
that you are not prepared now to extend those deadlines like 
you did the initial deadline of September 6th?
    Ms. McCarthy. No, sir. We are stayed in terms of moving 
forward to implement the rule as it currently exists, and we 
need to wait for the court to make those decisions.
    Senator Inhofe. And I assume the same thing is true with 
WOTUS?
    Ms. McCarthy. That is correct.
    Senator Inhofe. OK, now, I think the majority would not 
agree with that.
    I want to mention one other thing, and this time goes by 
pretty fast. On December 14th the Government Accountability 
Office, the GAO, found the EPA violated the Anti-Deficiency Act 
and appropriations law restrictions on covert propaganda and 
grassroots lobbying in promoting the WOTUS rule. Now, the Anti-
Deficiency Act requires the EPA to report immediately to 
Congress and to the President about the violation. Have you 
done this?
    Ms. McCarthy. We actually have our response at OMB now and 
they are looking at that. We have not, as far as I know, 
identified resources that were attributable to the two issues 
out of many that GAO identified.
    Senator Inhofe. Now, who has that now?
    Ms. McCarthy. The office of Management and Budget is 
looking at our corrections, as well as any identified resources 
that went into those two issues that GAO identified.
    Senator Inhofe. And you are saying that is going to happen 
before this Committee is going to be in a position to evaluate 
this? Because when they say report immediately to Congress, 
that is us.
    Ms. McCarthy. Yes. Well, sir, these are two issues. They 
are both social media issues, one related to a blog, the other 
related to the use of a social media that we used in accordance 
with OMB guidance. We haven't really identified significant 
funding that went into either of those two actions.
    Senator Inhofe. Well, OK. I would say this: That is 
something that this Committee is very concerned about.
    I do want to get one other issue out there, the ozone. We 
have talked about this in the past.
    Ms. McCarthy. Yes.
    Senator Inhofe. We have the requirements, parts per million 
or the parts per ppb, and it appears that we set standards, 
then go down the road, and before the counties, now this is 
confusing because you really think in terms of the number of 
people, the population. What happens, the 210 counties account 
for 40 percent of the American population. So we have 40 
percent of the American population from those counties not in 
compliance with the 75 parts per million.
    Now, what was the reasoning behind going over and now 
saying, even before you do that, we are going to set a new 
standard of 70 parts per million? What is the logic?
    Ms. McCarthy. Well, very quickly, what happened was that 
the prior administration moved forward with an ozone standard 
that the courts deemed was not legally solid and based on sound 
science. They kicked it back to the Agency. The court dictated 
us to resolve that issue in a specific timeframe, and then we 
also had obligations under the Clean Air Act to continue to 
look every 5 years at whether those standards need to be 
adjusted. So it ended up squeezing the system a bit.
    Senator Inhofe. It doesn't mean you have to set those 
standards, yet. You have to, you say, look at them.
    Ms. McCarthy. Yes.
    Senator Inhofe. Right now Senators Thune and Flake have 
legislation, you are familiar with that legislation, where it 
says that until 85 percent of the counties have, although it 
could be interpreted as to the population, but 85 percent of 
the counties have complied, we are not going to be setting new 
standards. Is that reasonable or is that unreasonable?
    Ms. McCarthy. Well, there is no inconsistency with 
continuing to move in a fashion that is reasonable to continue 
to look at how we achieve health standards moving forward. We 
have always had great success over time, and there is no threat 
to establishing a standard on health as long as the 
implementation is reasonable and appropriate, which we believe 
it is and has been.
    Senator Inhofe. Well, I was the mayor of Tulsa when we were 
out of compliance, and it was very, very difficult. So these 
people are going through the punishment phase before they have 
had a chance to accomplish.
    Ms. McCarthy. Well, we don't think of it as a punishment 
phase.
    But the good news is that when we are looking at the ozone 
standard, even the most stringent one that we just established 
at 70 part per billion, we are only looking at about a dozen 
counties that would be out of attainment by 2025, if you don't 
count the counties in California, which we know have unique 
geographic challenge.
    So we actually think that they can use the systems already 
in place, the rules have been put in place, that reducing NOx 
and VOC emissions to achieve national compliance, as well as 
address significant problems at the county level. So we are 
actually moving in a way that is consistent with the direction 
that the Nation is heading, and the good news is that we have 
had so much success in reducing NOx and VOCs that this should 
not be a significant burden to any county.
    Senator Inhofe. Well, it is a burden because we have been 
there.
    Senator Boxer.
    Senator Boxer. Administrator McCarthy, my State just 
experienced a massive natural gas leak at Aliso Canyon that 
released 96,000 metric tons of methane into the atmosphere. 
Until the well was capped, the leak accounted for 20 percent of 
California's total methane emissions, and that is a potent 
greenhouse gas, as we all know. This highlights the need to 
improve controls for methane emissions.
    I am pleased the EPA has made it a priority to cut methane 
emissions from existing sources of methane. When do you expect 
to propose standards for existing sources? Give me an idea.
    Ms. McCarthy. Well, Senator, we are moving forward 
hopefully very soon with the release of the information 
collection request, which is really the fundamental information 
we need in order to regulate effectively under the law. So we 
are looking at opportunities to move quickly this year, as well 
as continue that.
    Senator Boxer. Well, when do you expect to propose 
standards? I mean, I know you are going to start. Just give me 
a sense of it. It may be the next administration, but when do 
you think you will have these?
    Ms. McCarthy. Well, we certainly would have a significant 
information next fiscal year, but we are not ruling out an 
opportunity to continue this this year.
    Senator Boxer. Well, just count me as one person who thinks 
this is essential, because what a nightmare we have had.
    Administrator McCarthy, EPA's proposed revisions to its 
Risk Management Program regulations will add new requirements 
for chemical facilities to improve safety. I have had to deal 
with this when I was chairman of this Committee, these horrific 
explosions because of the failure to really have the best 
safety standards at these plants.
    So the rule is long overdue. OMB's Website indicates EPA 
intends to publish a final rule by the end of 2016. Can you 
assure this Committee that you can complete that rule on time?
    Ms. McCarthy. We are fully prepared to complete that rule 
on time. It is out; it is open for comment. We are looking 
forward in delivering that to the American people by the end of 
this year.
    Senator Boxer. So your intent is to have the rule by the 
end of 2016.
    Ms. McCarthy. We do intend to do that.
    Senator Boxer. OK. Administrator, the drinking water crisis 
in Flint highlights the need to address the Nation's failing 
water infrastructure. We don't have to go into the pain and 
suffering of that community, those little kids facing lives 
that are very problematic because of this failure of Government 
to provide them with safe drinking water.
    So I don't know quite why your budget request is a net cut 
of $257 million for these State Revolving Loan Programs. So in 
light of those cuts, can you explain how EPA will ensure 
adequate investments in clean water and drinking water?
    Ms. McCarthy. Well, we are looking to supplement the State 
Revolving Fund with other specific investments, but you are 
right, it is----
    Senator Boxer. What does that mean? What does that mean?
    Ms. McCarthy. Well, we are looking at investments that will 
go to support WIFIA. We are looking for investments that would 
go to support our financing strategy, where we are working with 
States. There is no question that we are sympathetic to the 
need for more State Revolving Fund moneys, and we will try to 
work with communities and States to make the most of this.
    But the challenge we have is that our operating budget is 
significantly limited and we have to look at presenting a 
budget that is reasonable and appropriate for the full range of 
responsibilities that the Agency has.
    Senator Boxer. Well, let me just say I am very sympathetic 
to your problems, but at the end of the day I would hope to see 
EPA fighting for a budget that meets the needs of the people. 
So, again, when we look back all those years ago, we are 
spending $2 billion more.
    Now, I know my colleagues probably on the other side of the 
aisle would not agree with me on this one, but I don't get how 
we can be spending less than we did several years ago when we 
have aging infrastructure. And I agree it is wonderful to have 
this leveraging, the WIFIA program, but it shouldn't replace 
the State Revolving Funds.
    It is upsetting because WIFIA was not meant to be a 
replacement, and I think my colleague and I would agree, to the 
State Revolving Funds. We want to have the State Revolving 
Funds be healthy and then have the leveraging ability of a 
WIFIA to come into play.
    So can you talk about the steps EPA has taken since the 
Flint crisis to avoid a repeat of this disaster?
    Ms. McCarthy. Certainly. Well, first of all, we are working 
very hard in the city of Flint to restore that water system 
appropriately. We have also written to every Governor in every 
primacy agency at the State level to make sure that they are 
looking at reviewing all of the data.
    They are looking at being transparent, notifying 
individuals and homeowners when they see lead increasing. We 
are looking at opportunities to bring together both people to 
look at what went wrong in Flint. We are looking at our lead 
and copper rule to strengthen it, as well.
    So we are taking a number of steps and also would like to 
continue the dialog on infrastructure investments, where we 
recognize that we simply have aging infrastructure, well beyond 
the lead challenge, that needs to be addressed that is 
currently hard to envision how we are going to maintain safe 
drinking water not just for legacy problems like lead, but for 
some of the new contaminants we are seeing.
    Senator Boxer. Well, Administrator McCarthy, my time is up, 
but I do want to say this to you as we wind down our current 
jobs. I think it is the role of EPA to get ahead of these kinds 
of crises; not to whisper in the ears of the State, but to yell 
in the ears of the State when we know facts.
    Now, there is a lot we know about lead. We know what it 
does to children; we know what it goes to fetuses; we know what 
it does to sick people. We need to get out in front, not 
whisper in the ears of people, because the people don't want to 
hear the bad news.
    So I am going to count on you and push you to do that. And 
if my colleagues yell at you, you can say it is my fault. But 
we need to get ahead of this stuff because the people are 
counting on us. All you have to do is look at the faces of 
those people there who are poisoned. That is murder by any 
other definition. That is a felony, because we know what lead 
does; it is not a great mystery.
    Ms. McCarthy. I would expect nothing less of you than to 
push us to do that.
    Senator Boxer. OK.
    Senator Inhofe. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman, for convening 
this important budget oversight hearing today. The oversight 
function of this Committee is critical to ensuring taxpayer 
dollars are spent in a judicious and also an accountable 
manner. The EPA must be accountable to the American people. 
There isn't a day that goes by that I don't hear concerns from 
my constituents about the impacts of the EPA regulations on 
Nebraskans.
    For example, Nebraska's public power utilities are 
grappling with how they could ever comply with the EPA's carbon 
emission reduction mandates. The city of Omaha is struggling 
with the Agency's expensive CSO mandate and drinking water 
affordability. Nebraska's farmers are waiting on new crop 
technology products that are stuck in a broken regulatory 
process. Our ethanol producers are desperate for certainty 
under the RFS.
    Homebuilders, transportation stakeholders, and local 
government officials are concerned about the Federal Government 
expanding control over our State's water resources. Communities 
and small business owners fear that the EPA's ozone mandate 
will stunt potential economic development and growth. Families 
are concerned about the future of their livelihoods due to the 
EPA's activist role, the consequences of which could lead to 
the elimination of entire industries.
    The EPA has an enormous impact on the American people. For 
this reason, it is important that this Agency be open, 
transparent, and take responsibility for its actions. 
Throughout this Administration, we have witnessed the EPA's 
misguided actions that have negatively impacted families all 
across this Nation.
    For example, in 2012, the EPA conducted aerial surveillance 
of feed yards in Nebraska. These properties are not only places 
of work, but they are homes where Nebraskans live and where 
they raise their children. The EPA also joined the Army Corps 
of Engineers to propose and finalize the very intrusive Waters 
of the U.S. rule, which threatens the economic security of 
countless Nebraska families.
    Moreover, a GAO report found that your agency broke the law 
by gathering public support for the misguided WOTUS rule 
through the use of social media. In another, more recent 
example, an EPA grant to the Northwest Indian Fisheries 
Commission was used to fund an anti-farmer advocacy campaign in 
Washington State. The billboard's website, radio ads, and other 
social media associated with this campaign villainized farmers 
and ranchers, and I found this initiative, which was funded by 
your Agency, extremely troubling.
    As we conduct our discussion today, I would ask you to bear 
in mind that these Americans, both in Nebraska and across the 
Country, who work hard each and every day to protect our 
treasured environment and natural resources, are important.
    As I mentioned in my opening remarks, Administrator, recent 
revelations have come to light regarding how the What's 
Upstream? campaign has been funded, and that was through an EPA 
grant. The financial assistance that your agency gave to fund 
this lobbying campaign is a blatant violation of Federal law. 
Even more disturbing is the revelation that a 2014 inspector 
general's report found this EPA region had insufficient 
protections in place to ensure against using these funds for 
lobbying purposes.
    So I would ask you, at what point did your Agency become 
aware of the misuse of EPA funds for the What's Upstream? 
Campaign and what role did EPA have in reviewing that billboard 
and website?
    Ms. McCarthy. Well, I cannot give you the exact date, but I 
can assure you that EPA also was distressed about the use of 
the money and the tone of that campaign, and we have put a halt 
to reimbursements of any funds under that. It is a subcontract 
and we have told our contractor that we need to have a full 
discussion and review before additional moneys are expended. 
And I do know that the most egregious tone was reflected on 
billboards. That will not be reimbursed through this fund.
    Senator Fischer. Thank you.
    I would ask you, are you planning on putting protections in 
place in the Agency so that we can be sure that grant funds 
aren't used in that manner in the future?
    Ms. McCarthy. I think we need to re-look at the details and 
the scope of our contract so that subcontractors that are then 
used not only meet the legal merits of what we have to do, but 
also reflect the tone and the interest of EPA in collaborating 
with agriculture on these issues.
    Senator Fischer. Thank you.
    Could you get information to my office about what policies 
and procedures that you are putting place that would prevent 
misuse in the future?
    Ms. McCarthy. Certainly.
    Senator Fischer. Thank you. I know all of my colleagues 
join me in supporting agriculture, and especially our families 
who work hard every day to produce a safe, affordable, healthy 
product in order to feed the world.
    Thank you.
    Senator Inhofe. Thank you, Senator Fischer.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    There is an April 7th Wall Street Journal story, Toxic 
Spill Fears Haunt Southwest. This has to do with the spill 
about 6 months ago that the EPA crew accidentally caused where 
you unleashed waste at a gold mine, the spring snow melt, as it 
says, threatens to stir up pollutants. So the people in the 
area are concerned that as the snow melts and comes down.
    The article talks about a 46 year old oilfield worker about 
the contamination. It says, ``The EPA hasn't returned to 
conduct more tests, and now Mr. Dils and others are worried 
that lead and other toxic materials that settled in the river 
will be stirred up.'' And just to remind folks, this is the 
one, you have seen the picture, the mustard orange colored 
river, 3 million gallons of toxic material that poured into 
that river.
    So he said they are worried that these toxic chemicals will 
be stirred up, contaminate the river again as the Animas swells 
with spring snow melt from the Rocky Mountains. So he says, 
``I'm nervous about the long-term effects.'' Says, ``It will be 
a matter of testing our well continuously, and we don't have 
the money to do it.''
    So in your oral testimony before the Indian Affairs 
Committee specifically related to that toxic spill, you stated 
that the EPA water results, in your words, ``indicated that 
water and sediment have returned to pre-event conditions.'' 
This gives, I believe, an incomplete picture of the long-term 
impacts of this EPA-caused environmental disaster. Ppeople in 
the area are referring to the EPA and they are saying EPA 
stands for the Environmental Polluting Agency, the 
Environmental Poisoning Agency.
    As Senator Boxer just said, look at the faces of those who 
were poisoned. This is murder. This is Barbara Boxer's quote 
about what happens when people are poisoned. She, a little 
earlier, said this is murder; and that's the way people in the 
area feel about what has happened.
    Communities want to know if their families will be safe as 
a result of the disaster that the EPA has caused, and you said 
it will take responsibility for. They need money for testing, 
and what EPA has offered in terms of technical support and 
long-term monitoring isn't nearly enough.
    So when the Indian Tribes impacted wanted a followup 
hearing to examine these issues specifically in that location, 
at first the EPA refused to even send a witness to testify in 
person. The hearing is going to be this Friday, Earth Day. 
Instead, the EPA offered only written testimony.
    As a result, the Senate Indian Affairs Committee has had to 
issue a subpoena, something that the Indian Affairs Committee 
hasn't had to do since the Jack Abramoff scandal. That puts you 
and the EPA in a very exclusive club, and it shouldn't have 
happened. This was a bipartisan subpoena.
    We are holding this field hearing to do oversight into this 
catastrophe that the EPA has caused. So the Indian Affairs 
Committee, both Democrat and Republican Senators, have now 
given you and EPA, or EPA Assistant Administrator Stanislaus an 
opportunity to testify at the field hearing Friday in person.
    So my question is, this Friday, are you planning to go to 
New York for the signing of the Paris Climate Agreement, stay 
here, or will you take this opportunity to face the people, the 
Navajo Nation, other Tribes whose communities were poisoned, 
and commit to them, as well as all the affected communities of 
this spill, the people who were poisoned, that you will provide 
them with the testing and the funding they actually need to 
assure that their families will be safe?
    Ms. McCarthy. Well, Senator, there may be some confusion, 
but I was actually never invited to this hearing. Mathy 
Stanislaus was originally and Mathy Stanislaus will be 
attending.
    Senator Barrasso. So you have been subpoenaed as a result 
of the EPA's decision to send no one, so we named you and Mathy 
Stanislaus, either/or. So my question is does the buck stop 
with you or with Mr. Stanislaus?
    Ms. McCarthy. Mathy Stanislaus will be attending the 
meeting, and we did our best to communicate with your staff to 
let them know that we were happy to send somebody before the 
subpoena was issued. We failed to be able to have those calls 
and communications returned to us.
    Senator Barrasso. I wanted to switch topics to the more 
than 2,400 jobs that have been lost in the energy sector in 
Wyoming since January. They are good-paying jobs, benefits that 
provide for Wyoming families. You stated before the 
Environmental Council of the States, on April 13th of this 
year, that ``I can't find one single bit of evidence that we 
have destroyed an industry or significantly impacted jobs other 
than in a positive way.'' That is your quote.
    I don't know what you are talking about. I hear it every 
day back in my State, in Wyoming, heard it this weekend, how 
EPA regulations are destroying the coal industry. Your 
regulations are costing jobs. Are you going to tell the laid-
off coal miners in Wyoming and West Virginia and Kentucky that 
you take no responsibility whatsoever for what is happening in 
coal country?
    Ms. McCarthy. Sir, I think our responsibility is to make 
sure that when the energy system is shifting, as it is in the 
market today, that we do everything we can to help those 
communities and those folks be able to cope with a shift in the 
economy and the energy system that we are seeing. And I am 
happy to have any of those conversations if I can be helpful.
    Senator Barrasso. So based on your quote of April 13th, you 
are saying you are not responsible for even one job loss in 
coal industry.
    Ms. McCarthy. Sir, that is not what my quote said, but what 
I would indicate to you is I believe that the energy system has 
been shifting since the 1980's, and it is time that we work 
with those communities and individuals to make sure that 
everybody in the United States has an opportunity to live well. 
And there are challenges in those communities, without 
question, but the vast majority of that is related directly to 
the market shift, not to EPA regulation.
    Senator Barrasso. Mr. Chairman, I will point out that 2,400 
jobs have been lost in the energy sector in Wyoming since 
January, and I believe it is directly a result of the EPA 
actions. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Barrasso.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    And thank you, Administrator McCarthy, for everything that 
you do for our Country. Thank you for the Clean Power Plan 
which you have put together. It is a very important part of the 
solution to the intensification of the warming of the planet, 
and I think it really helps the United States be a credible 
leader in working on these issues.
    Two thousand 15 was the warmest year on record. 2016 is off 
to a start that could break last year's record. In fact, 15 of 
the 16 hottest years on record have occurred since 2001. Only 
1998 rivals the temperature seen in the 21st century, so we 
have to act now.
    A recent report by Environment America shows that each year 
renewable energy could power our Country 100 times over. We are 
making strides in smart grid and storage technologies. The 
question is no longer if we can provide power for the Country 
with renewable energy, it is when and how we make the 
transition to 100 percent renewable. I don't think there is any 
question that by 2100 we will be there. The technology will 
just make it possible, along with the capacity of the grid to 
be able to manage those technologies.
    But, nonetheless, I know that there are still those that 
believe that you are the principal person responsible for this 
shift in the energy generation in our Country and the sources 
that create it. We know that natural gas, because of fracking, 
has just become a plentiful supply of alternative means of 
generating electricity in our Country, and we know that it has 
half of the greenhouse gases that coal does, and we also know 
that it is very competitive, if not less expensive than coal.
    So that is just the reality in the free market, Darwinian-
Adam Smith free market. And the same thing is true for 30 
States deciding that they want to have renewable electricity 
standards. That is just 30 States deciding that they want to do 
that. And I don't think we want to get into the way of 
individual States making a decision as to what their mix of 
generation should be across all sources.
    But I would also note again, and I think it is important to 
have this very, very clear, in 2009 the House, in the Waxman-
Markey bill, actually provided $200 billion for carbon capture 
and sequestration for the coal industry, for the electrical 
generation industry in its use of coal; and that $200 billion 
was in that legislation in order to create a bridge for the 
coal industry. Now, Peabody Coal, amongst other coal companies, 
said that they did not want the bill; they did not want that 
money, which is their choice.
    But as a result, that $200 billion is not available right 
now, which it would have otherwise been. And I think that could 
have played a large role in ensuring that the coal industry had 
a bridge to the future, because with carbon capture and 
sequestration it would have dramatically reduced the amount of 
greenhouse gases down to levels which would have been 
compatible with the goals the Country has for the reduction in 
greenhouse gases over the next 20 or 30 years.
    We also had money in to help communities respond to the 
changing energy landscape. We built that in as well for the 
communities.
    So I just want to make that very, very clear. That 
legislation was intended to actually help the industry with the 
transition that was already going on, and to make sure that it 
would deal with that source of fuel in a way that could have 
made it compatible.
    So can you talk a little bit, as well, about how the Clean 
Power Plan creates flexibilities for each one of the States to 
be able to deal with the reduction in greenhouse gases, which 
is going to be required?
    Ms. McCarthy. Well, Senator, the Clean Power Plan is 
enormously flexible in terms of allowing States to determine 
their own energy mix, as well as to work with other States to 
identify the best path forward that will not only achieve the 
greenhouse gas reduction targets, but also look at how we can 
strengthen the economy of every State moving forward.
    I agree with what you said, but one of the other pieces 
that I would add is that solar and wind now is so cost-
competitive, and that is where job growth is being seen. So 
there is a need to address the challenges in these coal 
communities, but there is also an opportunity here for lowering 
energy costs while we maintain a sound and reliable energy 
system.
    Senator Markey. Thank you so much for your great work. 
Thank you.
    Senator Inhofe. Thank you, Senator Markey.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Good morning, Administrator.
    Ms. McCarthy. Good morning.
    Senator Rounds. Last week a subcommittee of this Committee 
on Superfund, Waste Management, and Regulatory Oversight, a 
committee that I chair and Senator Markey sits as the ranking 
member, hosted a hearing on small business impacts from EPA 
regulations, and we received testimony regarding a number of 
instances where the EPA has disagreed with the Office of 
Advocacies out of the SBA, but the Office of Advocacy's 
recommendations on particular rulemaking.
    Our witnesses testified that there is no mechanism in the 
law that reconciles these differences between the EPA's 
decisionmaking process and the Office of Advocacy's opinions. 
Can you please share how you view the Office of Advocacy's 
recommendations and how seriously you consider these 
recommendations throughout the rulemaking process?
    Really what I am curious about is it doesn't appear that 
there is any way to reconcile the difference when, as in this 
particular case, the one that we were working on was WOTUS, 
where the Office of Advocacy actually came out and said they 
disagreed with implementing it; and yet it moved forward.
    Can you share with us the role that it plays, the reactions 
that you have and how it is considered, how their position is 
considered in your decisionmaking process?
    Ms. McCarthy. Well, we certainly work with the Small 
Business Administration to comply with the law, which is that 
we need to consult with them in a panel that is established to 
look at the rule to provide us advice on how we can both 
identify and respond to significant challenges that small 
businesses might face. And I think we have actually a very good 
record of being able to have a robust process that informs our 
decisionmaking early on in the rules so that we can propose 
rules that are more sensitive to the needs of small businesses 
and finalize those rules.
    Now, there are differences between the work we do with the 
Small Business Administration to comply with all of the OMB 
rules and requirements and what the Small Business Advocacy 
Office might understand and move forward in terms of their 
concerns, but we try to resolve them; and I can certainly show 
you where their input has provided us tremendous opportunity to 
get at the reductions we are supposed to achieve, but to do it 
in a way that is much more sensitive of the unique challenges 
that small businesses face.
    Senator Rounds. Administrator, I think that would be 
helpful because in this particular case, with WOTUS, their 
recommendation was do not implement it; and yet the process 
moved forward with the implementation. As we all know, it has 
now been stayed, and yet it appears as though they were 
straightforward in their recommendations. If there is evidence 
that there was a reasoning or a discussion that continued on, 
that would be very helpful to this Committee to be able to see 
that; and if you could provide that it would be helpful. Is 
that available?
    Ms. McCarthy. I certainly know that we had meetings to 
discuss the implications on small business. I was briefed on 
those discussions, and I would be happy to provide you a 
summary of those or see what else I might be able to provide 
you to indicate that we did listen to those inputs.
    You know, the Clean Water Rule is a little bit different 
than an implementation rule; it is really looking at how you 
structure the jurisdictional questions around what streams and 
rivers require protection under the Clean Water Rule and how we 
manage those. And, frankly, how we did the Clean Water Rule was 
to try to be very clear in terms of trying to reduce sort of 
the process of identifying those jurisdictional answers, as 
well as how you would mitigate the challenges moving forward.
    Senator Rounds. And I think that is one of the reasons why 
they had recommended that it not be implemented, was the 
frustrations that they had looked at as an outside group. I am 
wondering if it isn't time to perhaps have a third party as an 
arbiter when it comes to these types of problems, where you 
have two Federal agencies, one in which you want to implement a 
rule and one in which you have another Federal agency which 
says clearly this is damaging to small business.
    Is it time to start talking about a third-party arbitration 
process within the Federal agencies themselves?
    Ms. McCarthy. I think there is a panel process that we are 
required to go through in many instances, but in this case, 
Senator, this wasn't the sort of something that EPA just 
decided on our own to do; the Supreme Court told us two times 
that the current guidance and rules were not sufficient, that 
we needed to do science and we needed to come back.
    And when we did come back and we suggested maybe a guidance 
was the thing to do, we were told by many in Congress, as well 
as stakeholders, no guidance; do rules, we want a public 
process. And that is what we did. And we will see whether this 
rule stands up when it is held to court scrutiny. But I am very 
confident that we did the work we should do and that it will 
prevail.
    Senator Rounds. Mr. Chairman, thank you.
    Administrator McCarthy, thank you.
    Ms. McCarthy. Thank you, Senator.
    Senator Inhofe. Thank you, Senator Rounds.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Welcome, Administrator McCarthy.
    Ms. McCarthy. Senator, how are you?
    Senator Whitehouse. First of all, just for the record, I do 
believe that it has been reported in a variety of forums that 
the war on coal was actually waged and won by the natural gas 
industry, including a recent story by that famously liberal 
publication, the Wall Street Journal. So I will ask unanimous 
consent to have that Wall Street Journal story put into the 
record.
    This past week, in Rhode Island, in addition to the 
national New York Times front page story on the dying out and 
bleaching, which is more or less the same thing, of the Great 
Barrier Reef, the Providence Journal ran a front page story 
headlined Drowning Marshes. Our seaside marshes are not keeping 
up with the pace of sea level rise. The newspaper also did a 
big story on the historic buildings in and around Newport and 
the number of them that are vulnerable to our current State 
projections of sea level rise, which actually numbers 550 
historic or historic designation-eligible buildings worth close 
to half a billion dollars.
    Unless somebody around here wants to repeal the law of 
thermal expansion, then we are going to have to really address 
this problem, and it is going to hit my ocean State very, very 
hard. These are facts that my State lives with every day, so 
don't let up; keep doing what you are doing. We understand. 
Clearly, there are several dimensions to the political fight 
that you are caught in the middle of.
    One is, unfortunately, Republican versus Democrat. It 
didn't use to be that way; this used to be a Committee where 
Republicans and Democrats worked together on environmental 
issues. But at least for now those days appear to be past. It 
is also a little bit of the past versus the future; and the 
future is inevitable, but the past is often reluctant to give 
up its incumbency.
    But it is also geographic. And as you heard from Senator 
Barrasso, he has some very legitimate concerns about what is 
happening in Wyoming. Rhode Island also has very legitimate 
concerns; they just happen to be the opposite side. The more 
that Wyoming coal pollutes, the more that we experience these 
changes in Rhode Island.
    The third story in the Providence Journal related to a big 
session that they had and they brought in people to talk about 
our fisheries. Rhode Island's fisheries are in a State of 
upheaval because of the warming temperatures of the sea. We 
know that 90 percent of the excess heat from climate change 
from the warming planet has gone into the oceans.
    This is something that we measure with thermometers, so 
unless people want to be not against science, but against 
measurement, they are going to have a real problem with this 
data. It is not complicated to take these measures, and 
fishermen are telling me, Sheldon, things are getting weird out 
there. They are getting fish like tarpon and grouper in their 
nets in Rhode Island Sound.
    Joe Manchin and I have exchanged visits to each other's 
States so I could understand the problems of coal country and 
he could understand the problems of ocean country, if that is a 
phrase. And we went out on a fishing boat and the captain said, 
you know, this isn't my grandfather's ocean; I grew up fishing 
and I don't know what is going on out there any longer. And 
that creates real peril for our fishing industry. So don't 
forget the Rhode Islands of the world when you are taking heat 
from the folks who are on the side, I would say here, of the 
past.
    And I would urge my colleagues, you know, we met at Senator 
Markey's request with a delegation that included a gentleman 
from the Mexican Parliament. They have just accepted an auction 
for 3.5 cent per kilowatt hour wind power or solar. I forgot 
which. But it was a clean power source. Three point five cents. 
It is really hard to compete with that.
    And the day is going to come, those prices are going down, 
when this adjustment has to happen; and there are two ways we 
can make it happen. It can be a managed transition in which the 
harm from the transition, the upheaval from the transition is 
dealt with in a responsible way, or it can be an abrupt 
transition. And I would suggest that what we have seen with 
Peabody Coal and with some of these other companies show that 
when the industry focuses on just truculent, grit your teeth 
and wait until the better end, the abrupt transition is very, 
very unpleasant.
    So my time is up. Keep doing what you are doing. And I urge 
my colleagues to please work with us. There is a way to make 
this transition much more manageable for the genuine economic 
concerns that they face in their States, but it is not fair to 
come here and talk about the economic concerns that they face 
in their States and then completely ignore the changes that are 
happening in my State. Thank you.
    Senator Inhofe. Thank you, Senator Whitehouse.
    Senator Wicker.
    Senator Wicker. Administrator McCarthy, thank you very much 
for coming to see us again.
    I want to ask about radon. The State Indoor Grant is one of 
a number of programs the President proposes to eliminate in his 
budget. On the other hand, the President's budget requests $235 
million in climate-related funding, the centerpiece of which is 
the Clean Power Plan, of course.
    The Clean Power Plan, according to your figures, will avoid 
6,600 premature deaths by the year 2030. On the other hand, by 
your own analysis, radon causes an estimated 21,000 lung cancer 
deaths each year. Do I have those figures right, at least, 
Administrator?
    Ms. McCarthy. Well, I don't have that exact figure, but the 
figures that we provide for 2030 are annual figures. Every year 
that is a reduction.
    Senator Wicker. OK. So what you are saying is that the 
Clean Power Plan will avoid 6,600 premature deaths per year.
    Ms. McCarthy. Yes.
    Senator Wicker. OK. And by contrast, radon causes an 
estimated 21,000 lung cancer deaths annually in the U.S. It 
just seems to me that you are not being cost-efficient there. 
The core mission of the EPA is to protect human health and 
environment. Given these numbers, it seems to me that taking 
the money away from known threats such as indoor radon is 
inefficient, in that there are some 21,000 lung cancer deaths 
attributed to radon each year.
    Ms. McCarthy. Well, let me just respond to that. If I 
thought $8.1 million in State grants would actually reduce 
21,000 lives and save those, I would. Really, the question is 
whether or not that $8.1 million to States is the right way to 
address the risk that is apparent. And we have developed a 
separate strategy that we think is more efficient that doesn't 
require State grants to be done, and we have not found that 
State grants are the most appropriate and efficient way to 
address that risk.
    What you are comparing is known reductions that we believe 
will happen versus the entire risk to radon.
    Senator Wicker. You are saying the State indoor radon grant 
program is an ineffective program?
    Ms. McCarthy. I am saying that there are more effective 
ways to use our resources, and we are trying to do that. That 
is how we have framed this budget.
    It is not that we don't like the grants, but you have to--
--
    Senator Wicker. So what is the name of the program, then, 
that you are advancing and advocating today to supplant the 
State indoor radon grant?
    Ms. McCarthy. We have our indoor air program, and part of 
their charge is to address radon, and we are doing that in two 
different ways. We have a Federal plan that is looking across 
the board at how we do this using Federal resources from 
agencies that are essentially landlords, and we are also 
marrying that effort with individual States and NGO's and 
innovators who have technology options to actually reduce radon 
in the home and how we spread that word more effectively.
    Senator Wicker. OK, well, we will discuss that more in 
depth with some questions for the record.
    Ms. McCarthy, the Clean Power Plan has been stayed by the 
Supreme Court. You have said it doesn't prevent EPA from 
continuing to work on the rule. Now, last month you testified 
before the House Energy and Commerce Committee with regard to 
the stay.
    Ms. McCarthy. Yes.
    Senator Wicker. So we certainly won't do anything that 
implements or enforces the rule, consistent with the Supreme 
Court stay. What work is your agency continuing to do with 
regard to the Clean Power Plan? Have you requested any legal 
analysis to ensure that you have the legal authority to carry 
out this work? And if you have requested such a legal analysis 
and received one, can you provide that analysis to this 
Committee?
    Ms. McCarthy. Well, I can certainly tell you that I have 
worked with our Office of General Council, who is working very 
closely with the Department of Justice to make sure that we 
totally respect the decision of the Supreme Court, as we always 
would. We are continuing to attend meetings that the States 
request of us. We are continuing to work with States that, on a 
volunteer basis, want to actually continue to move forward in 
the development of their State plans; and we are continuing to 
look at the tools available to the agency to support that 
effort. For example, the States want us to develop an 
accounting system that would help them to account for their 
greenhouse gas emissions.
    Senator Wicker. But in the short time we have, with regard 
to a legal analysis, you have been working with your inside 
counsel and with the Justice Department.
    Ms. McCarthy. Correct. Yes.
    Senator Wicker. Have they provided you with written 
analyses about whether you can go forward and what you can do 
and what you can't do?
    Ms. McCarthy. I have certainly had many discussions with my 
Office of General Counsel, who has told me what everybody 
believes is the consensus of what we should and shouldn't be 
doing. It is very clear to me----
    Senator Wicker. Is there anything in writing? You see what 
I am getting at, though. I am just trying to get a specific 
answer so I can know if you can provide this Committee with 
copies of this written advice. So you have mentioned oral 
advice.
    Ms. McCarthy. Yes. I did not see anything in writing.
    Senator Wicker. But do you have anything in writing?
    Ms. McCarthy. I have not seen it provided to me, but I can 
go back and see if there is written discussion of this. But 
clearly we are doing everything possible to consult with our 
attorneys and make sure we are being very respectful. But I am 
doing nothing that implements or enforces this rule, consistent 
the Supreme Court's decision.
    Senator Wicker. If you have anything in writing, I would 
appreciate it if you would submit it to this Committee.
    Ms. McCarthy. Thank you, sir.
    Senator Inhofe. Thank you, Senator Wicker.
    Senator Cardin?
    Senator Cardin. Thank you, Mr. Chairman.
    Administrator McCarthy, I very much respect what you are 
doing and thank you very much for your service. We have worked 
together on many issues and I very much support your leadership 
at EPA.
    Having said that, last year I raised an issue at the budget 
hearing and I thought we were going to do better this year, and 
it looks like we haven't done any better this year. So perhaps 
you can try to clarify for me the budget as it relates to water 
infrastructure in this Country.
    Your own department has estimated a need of $655 billion 
over the next 20 years in regards to clean water and save 
drinking water. Since we last met, we have had the tragedy of 
Flint, and Flint is not an isolated circumstance. What they did 
I hope is isolated, that is, not actively responding to 
minimize the risk of lead in drinking water, but we know that 
there is a lot of lead in pipes that lead into people's homes; 
we know that there is corrosion issues; we know that there is 
old, inefficient water systems in regards to safe drinking 
water; and we know that the clean water infrastructure is in 
bad need of repair, to the tune of, as I said, $655 billion, 
your own estimates, over the next 20 years.
    So I am perplexed as to why, in regard to the State 
Drinking Water State Revolving Fund, the President's budget is 
less this year requested than what the President requested last 
year in his budget. And then when you go to the Clean Water 
State Revolving Fund, the amount the President requested is 
substantially less than the amount appropriated in last year's 
budget, to the tune of about $413 million. That does not seem 
like a commitment to modernize our water infrastructure. Do you 
have a better explanation this year?
    Ms. McCarthy. There are obviously constraints that we have. 
One is we have to respect the levels that were established in 
the bipartisan budget agreement, and our choice was how do we 
use the money that is allocated to us in the best way that we 
can. There is no question that we have to have a larger 
conversation about how we fund infrastructure. I think Flint 
has made that very clear to everybody. But I don't think that 
that is something that we can identify as a way to fully 
resolve within the budget constraints of EPA.
    Senator Cardin. I very much appreciate the struggle with 
the budget caps and the omnibus limits. I very much appreciate 
that. And I do want you to adhere to those limits because that 
is our agreement for this budget year, and we are all going to 
work to adhere to the agreement that has been reached.
    But there are creative ways that you can help us find ways 
to improve our water infrastructure. The last one we did the 
WIFIA funds. There are different tax incentives that you can be 
talking about. There are different challenges we have in 
dealing with the last connection between the drinking water 
supplies and a person's home.
    It seems to me that, recognizing the risk factor that we 
have today, we need your advocacy for stronger water 
infrastructure in America.
    Ms. McCarthy. Well, I will do my best to be able to provide 
my voice to that. I will tell you I think there has been no 
worse issue that I have faced in my almost 36 years now than 
Flint, Michigan. It was devastating to the individuals there.
    And if there is anything that we can do as a Country to 
recognize the challenges we face, because in Flint it is not 
only the lead issue; it is the fact that it has half of the 
population it had in the 1970's and it now has a big system 
that they haven't invested in in decades. So it is enormously 
challenging.
    And from that perspective it is not different than many 
other urban areas that have lost significant populations and 
simply don't have a way of continuing to make those investments 
moving forward. And you are absolutely right, it becomes a 
responsibility of EPA to identify those challenges and to speak 
as loudly as we can about them, and I will do the best I can 
with the time I have remaining.
    Senator Cardin. I appreciate that. I point out, as you just 
said, it is not just Flint. The systems in my State date back 
100 years, and the ratepayers just cannot do everything that is 
required in order to replace pipes that are in some cases 100 
years old. In Baltimore City, our public schools, the drinking 
water supplies through the fountains have been terminated 
because it is not safe because of lead. So we have a national 
problem and we need national leadership.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Cardin.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    As I have been saying in the Committee, it is not just 
aging infrastructure, it is lack of infrastructure. There are 
entire communities in my State that don't have clean water or 
flush toilets; they live in Third World conditions, and we 
certainly would want your help there, Administrator McCarthy.
    I wanted to raise a concern that I have raised on this 
Committee with you a lot, and it is the concern about we 
certainly all want clean air, clean water. My home town of 
Anchorage won another award for best practices recently on 
clean water.
    But the concern about the law and your agency not abiding 
by the law, you know, since you last appeared here, two courts 
have placed injunctions on your two signature regulatory 
issues, the Waters of the U.S. and the Clean Power Plan. These 
are really important issues to us in terms of oversight.
    Many of us asked for the legal justification on WOTUS. You 
were reluctant to provide it. Now I understand why. Have you 
read the 6th Circuit opinion that has put a stay on the Waters 
of the U.S. ruling?
    Ms. McCarthy. I am certainly aware of it.
    Senator Sullivan. Do you know what they said?
    Ms. McCarthy. Yes.
    Senator Sullivan. What did they say?
    Ms. McCarthy. Well, basically they said that they wanted to 
make sure that they looked at the underpinnings of the rule 
from both a science perspective, as well as a legal 
perspective, and indicated that the rule shouldn't continue to 
move forward until they were done.
    Senator Sullivan. They were also concerned and favorably 
disposed to the petitioner's argument that you were expanding 
your jurisdiction under the Clean Water Act, which is only the 
realm of Congress. Only we can do that; the EPA can't do this.
    Ms. McCarthy. And that is why we are looking forward to----
    Senator Sullivan. So that is a big deal. But let me go. 
There is another much bigger that I don't think is getting 
nearly the attention, it is the injunction by the U.S. Supreme 
Court for the Clean Power Plan. You glossed over it in your 
testimony, but this is a really big deal.
    Let me ask you, Administrator McCarthy, how many times do 
you think the Supreme Court has done this in its history, has 
put an injunction on a Federal regulation before a lower court 
weighed in on its merits? How many times in the history of the 
Supreme Court has that happened?
    Ms. McCarthy. I am not aware of any.
    Senator Sullivan. I can tell you. Never before it happened 
to you. So this is an unprecedented action and, again, it goes 
to this issue of the rule of law. So have you thought about why 
they did that? Have you read that ruling?
    Ms. McCarthy. Well, it was fairly short.
    Senator Sullivan. It was short, but has your team thought 
about why the Supreme Court, first time in U.S. history, took 
this kind of unprecedented action? It is a big, big deal. Why 
do you think they did it? Let me just ask you a couple reasons 
why they may have done it.
    Your recent record in the Supreme Court, utility air 
regulators, where Justice Scalia said you had violated the 
separation of powers; the EPA v. Michigan; the WOTUS ruling. Do 
you think that those may have impacted the Supreme Court's 
ruling?
    Ms. McCarthy. Sir, the Supreme Court gave no indication 
that they we relooking at the merits on this issue when they--
--
    Senator Sullivan. No, but I am asking you guys to reflect 
on why.
    Ms. McCarthy. It would be way more presumptuous of me to 
indicate what I think the Supreme Court was thinking.
    Senator Sullivan. When Laurence Tribe was arguing against 
the rule, he stated, and Laurence Tribe is not some kind of 
Republican partisan, ``Burning the Constitution should not 
become part of our national energy policy. The EPA, with this 
rule, is attempting an unconstitutional trifecta: usurping the 
prerogatives of the States, Congress, and the Federal courts 
all at once.''
    Do you think the Supreme Court may have been thinking about 
Laurence Tribe's arguments?
    Ms. McCarthy. Sir, I know the Supreme Court did their job. 
We will do our job on the merits, and I am very confident of 
this rule not just being constitutional, but being legally 
solid all around.
    Senator Sullivan. Do you think they may have been thinking 
about job losses that have occurred because of EPA regulatory 
issues?
    Ms. McCarthy. Sir, I can't say what the Supreme Court was 
thinking. They made their decision and I respect it.
    Senator Sullivan. Let me ask one other issue, Administrator 
McCarthy, on why the Supreme Court may have done that, and I 
think it relates to your views on some of these regulatory 
issues. You were quoted, on the eve of the EPA v. Michigan 
case, when they asked if you thought they were going to rule in 
your favor, you said yes. They didn't. But then you said, 
``Even if we don't win, it was 3 years ago that we issued the 
rule. Most of them,'' meaning companies in America, ``are 
already in compliance, investments,'' hundreds of millions, 
``have been made and we'll catch up. We're still going to get 
at these issues from these facilities.''
    So, in essence, you publicly were stating even if we lose 
on the rule, we win.
    Ms. McCarthy. No, sir, that wasn't what I----
    Senator Sullivan. That statement has been played around the 
Country. Many, many Americans are upset by it. Do you 
understand how that exudes arrogance and a disrespect for the 
rule of law when your agency is essentially saying we don't 
even care how the courts rule? And do you think the Supreme 
Court may have taken this unprecedented action because of your 
statement that you made on this issue?
    Ms. McCarthy. Well, I would find it--well, I won't even----
    Senator Sullivan. Do you regret making that statement?
    Ms. McCarthy. No, not at all, because I wasn't indicating 
what you just said. The Supreme Court actually didn't negate 
the rule; they remanded it back because they thought we needed 
to do a job earlier on in the process on cost, which we have 
just completed. I think we got nine comments on that.
    And we know that we are past now the 4-year window for full 
compliance on that rule. I am proud of it. I love the lives 
that we are saving as a result of that rule. And the industry 
has been able to manage their way through it brilliantly.
    Senator Sullivan. Mr. Chairman, I have some more questions, 
and I would ask, once everybody is done, I would like, if it is 
possible, to stay. We do this in every other committee. I don't 
know why this would be a problem.
    Senator Inhofe. Well, this is not every other committee. 
What I will do, we will certainly, if Senator Boxer wants to 
have an additional 3 minutes or something like that, I could 
yield mine to you. But that is about as far as we could go. 
Thank you.
    Senator Sullivan. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you.
    Senator Carper.
    Senator Carper. Thanks. I want to just note with some irony 
that the job approval rating of the U.S. Senate, both sides of 
the aisle, pales by comparison to the voter approval of the 
EPA, and your stewardship with respect to clean air and clean 
water.
    I would also say lovingly to my colleagues on the other 
side that we sure could use a nice Supreme Court Justice. I 
think the President has given us a pretty nominee, and I would 
urge you to spend some time with him.
    When I left the hearing earlier this morning to go a 
roundtable with the Committee on Homeland Security, Senator 
Inhofe was saying that he wanted to start off the hearing on a 
positive note, and he conveyed his gratitude to you and to EPA 
with respect to an issue that has been contentious on this 
Committee, and I just want to second that emotion from you. I 
know it is not easy for you; it is not easy for us. But thank 
you very much for your work there.
    I want to talk about another issue that we have worked on 
together on this Committee, Senator Inhofe and myself, Senator 
Boxer, and a new colleague from West Virginia now have authored 
legislation reauthorization for DERA, Diesel Emission Reduction 
Act. Diesel legislation is close to my heart. The original 
author of that was George Voinovich, as you will recall. I 
understand from the President's budget proposal that his budget 
shifts funding away from DERA and instead funds clean diesel 
programs through attacks on oil producers separate from the EPA 
budget. Is that correct?
    Ms. McCarthy. It actually relies on a separate mandatory 
fund. But we have $10 million allocated on our Fiscal Year 2017 
budget. I think you and I share a love for the DERA program, 
and certainly for all of the great reductions in emissions that 
has resulted from it in the past.
    Senator Carper. Thank you. Can you just explain the reason 
for this shift in funding? And if the Administration is not 
able to convince those of us in the legislative branch to 
implement this tax on oil, how important is the current funding 
mechanism for the DERA program?
    Ms. McCarthy. Well, we know that diesel emissions are 
particularly difficult to manage and we know that we are 
supporting, beyond the diesel campaign and the DERA money, 
opportunities to look at areas like ports and others that are 
so important to address.
    So I think the idea was that we would provide a more stable 
mandatory basis for supporting programs that were like the DERA 
program that showed consistent success. It is an opportunity to 
look over a 10-year horizon to implement or to effectively get 
$300 million dedicated to this, and it was the choice of the 
President to move in this direction and to support DERA in a 
considerable way.
    Senator Carper. All right, thank you.
    Changing back to the Clean Power Plan, if I could, it is my 
understanding that the budget request from the Administration 
includes $25 million to the States through a grant program to 
implement the Clean Power Plan. Is that correct?
    Ms. McCarthy. That is correct.
    Senator Carper. Do you believe that the States will use 
this money to provide better flexibility and certainty to 
utilities within their States when implementing the rule?
    Ms. McCarthy. I think they will fully utilize it, yes.
    Senator Carper. OK. Do you believe that cutting these funds 
will derail the Clean Power Plan?
    Ms. McCarthy. No, sir, but I think it will slow down the 
ability of States to hit the ground running.
    Senator Carper. And who would it hurt the most if we were 
to cut these funds?
    Ms. McCarthy. The States.
    Senator Carper. All right. Earlier, one of my colleagues 
was talking to you about Waters of the U.S. We spend a fair 
amount of time in our State, and I know my colleagues have in 
their States, meeting with different folks, could be 
developers, could be farmers, a lot of different folks who 
represent different environmental views.
    But my understanding is that one of the reasons why you 
have promulgated this is because for years we heard that there 
is not enough certainty and predictability for folks who are 
farming, for folks that want to develop or build communities or 
housing projects; there is not enough certainty for them to 
know what to do, and they have been asking for some certainty 
and predictability. My understanding is that you have tried to 
provide that. Would you just respond to that thought?
    Ms. McCarthy. We did. We actually were required to do this 
by the Supreme Court. But we also knew that there was a level 
of uncertainty that was causing a lot of backup in the process 
for decisions to get made, for people to have certainty about 
what was in and what wasn't, and what the mitigation strategy 
would be. We spent a considerable amount of time working to 
make sure that we were following the science to say what is in, 
what is out, and where case-by-case review is necessary.
    We also provided significantly more clarity for the 
agriculture community on the exemptions and exclusions. We 
didn't take any away; we actually added some into the system so 
that agriculture would be able to perform their vital role for 
all of us in a way that would allow them to be sure that they 
are not running afoul of any rule or regulation.
    Senator Carper. All right. Thanks so much.
    Senator Inhofe. Senator Vitter.
    Senator Vitter. Thank you, Mr. Chair.
    Thank you both for being here. Mr. Bloom, our apologies for 
not directing any questions to you. I know you are all upset 
and frustrated by that.
    [Laughter.]
    Senator Vitter. But like the others, I am going to direct 
my questions to Ms. McCarthy.
    I want to build on some previous comments and questions, 
Madam Administrator, about the Small Business Regulatory 
Flexibility Act. I am Chair of Small Business. This has been a 
real concern of a lot of members, including Democrats, and I 
heard your response to Senator Rounds a few minutes ago that 
you take it very seriously.
    In the case of WOTUS, which is a big deal by anyone's 
estimation, the EPA said it has no significant impact on small 
business. Do you really stand by that and do you really think 
that backs up your statement that you take this mandate to 
mitigate impacts on small business seriously?
    Ms. McCarthy. Well, sir, when we were looking at the Clean 
Water Rule, we consulted with OMB. The decision was that we 
were not required to formally do a panel, SBREFA panel, but we 
did commit to having significant conversations and that is how 
we----
    Senator Vitter. I don't mean to interrupt you, but that 
means that you determined the WOTUS rule had no major impact on 
small business.
    Ms. McCarthy. Because it was a jurisdictional rule instead 
of an implementation rule.
    Senator Vitter. You stand by that?
    Ms. McCarthy. Certainly. I stand by the fact that we did 
the outreach to small business the way we should.
    Senator Vitter. And you think reaching that conclusion is 
evidence of your taking the small business impact issue 
seriously?
    Ms. McCarthy. I think the evidence of our taking it 
seriously was we went above the beyond the requirements under 
the law to reach out to small businesses and get their input.
    Senator Vitter. Just for the record, I completely disagree. 
I don't think you met your requirements.
    Ms. McCarthy. OK, Senator.
    Senator Vitter. More recently, EPA submitted its proposed 
rule regulating methane emissions for new oil and natural gas 
infrastructure to the White House. You submitted that to the 
White House for review before the small entity representatives 
on the panel submitted any comments to the EPA. Do you think 
that evidences your taking this small business impact issue 
seriously?
    Ms. McCarthy. I am sorry, Senator, I don't know the exact 
timing on that, but often there are overlaps. But, as you know, 
we make adjustments through the interagency process so that 
those efforts are completed before any proposal is out for 
public comment.
    Senator Vitter. Well, I do know the timing, and I am 
telling you you submitted it to the White House for review 
before getting any small business input. Now, I know you can 
always come back and change things, but normally, you have a 
draft, once you are giving it to the White House, that is 
basically it. Once again, to me, this is a red flag that you 
all aren't taking the small business impact issue the least bit 
seriously.
    Let me move on to a second issue, which is Flint; and we 
have talked about that.
    Ms. McCarthy. Yes.
    Senator Vitter. I think it is very clear to all of us that 
there were multiple failures of government at multiple levels 
with regard to this issue, and it is now well established that 
that, unfortunately, includes EPA, that EPA knew of the crisis 
well before national media attention, but seemed to fail to act 
on the issue and notify Flint residents.
    Because of this, Senators Inhofe, Cornyn, and I wrote to 
you with some specific questions on February 4th. It is now two 
and a half months later; we have no response. When are we going 
to see a detailed written response?
    Ms. McCarthy. I apologize for interrupting. You are going 
to get it momentarily. I am sorry, within the next day or two.
    Senator Vitter. OK, so we will look for that within the 
next 2 days. Again, we sent this February 4th.
    Ms. McCarthy. Right, sir.
    Senator Vitter. Detailed questions, and we look forward to 
a substantive, specific detailed response.
    Ms. McCarthy. We will do the best we can.
    Senator Vitter. Ozone regulation.
    Ms. McCarthy. Yes.
    Senator Vitter. You recently claimed at a conference that 
you ``can't find one single bit of evidence that the EPA has 
destroyed an industry or significantly impacted jobs other than 
in a positive way.'' Do you stand by that statement?
    Ms. McCarthy. Yes, sir.
    Senator Vitter. OK. Well, I just want to point out, related 
to ozone regulation, I can tell you from Louisiana there were 
four major chemical manufacturing projects under active 
consideration for Baton Rouge. That was public, specific 
projects.
    After EPA first proposed lowering the ozone standard in 
December 2014, those were canceled. Since that has been 
finalized, that cancellation is definitive. Just those 
projects, one metro area that happens to be in my State, 
totaled 2,000 direct and indirect jobs. New payroll would have 
been over $86 million. Is that a negative impact?
    Ms. McCarthy. Well, sir, the jobs that you are talking 
about are essential for everybody to continue to grow, so I am 
happy to look at that issue, but very often companies make 
decisions on the basis of their larger economic benefits and 
costs, and very often they will point to an EPA rule to justify 
that decision when there are many other issues going on that 
actually account for that decision more directly.
    Senator Vitter. Well, I can tell you in the case of Greater 
Baton Route, ozone is a huge issue because it pushes the whole 
area into non-compliance. It is absolutely categorically 
canceling projects, including the four I mentioned, and that is 
over 2,000 jobs. So, you know, when you make the statement that 
you see no evidence anywhere that anything EPA has done has 
hurt jobs, I think that is a very crystal clear example to the 
contrary.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Vitter.
    Senator Booker.
    Senator Booker. Mr. Chairman, I would first like to say 
thank you to you publicly. Your staff and team has been working 
so well with mine in regards to TSCA, and I am just grateful. 
These last few days you guys have been pretty extraordinary, so 
thank you, sir.
    Senator Inhofe. Thank you.
    Senator Booker. It is just so good to see you. And again I 
apologize for you just being completely ignored today, which is 
just insulting. If you would like to hang out after, I will buy 
you a beer.
    Ms. McCarthy. He is great moral support.
    Senator Booker. OK.
    But, Administrator, I just want to thank you. You have been 
such a great partner focusing and championing a lot of issues 
that are very personal to mine. You have been to my State a 
number of times and I am grateful for your work, especially for 
marginalizing and vulnerable populations. I think we have a 
crisis in this Country in terms of the toxicity and how it 
affects our children, particularly children in rural areas and 
urban area, and to see the health data for those children is 
just alarming to me.
    Really quick, one of my greater frustrations about the 
historical change of our Country is really President Reagan, 
who reauthorized the last time the Superfund clean-up efforts 
with some current Senators even being a part of that, was 
helping us to more quickly remove Superfunds, which exist in 
every single State of our Country.
    Are you aware of the health data, now that we have a lot 
more longitudinal data, that is showing that birth defects for 
children born around Superfund sites is about 20 percent 
higher, showing that autism rates for children born around 
Superfund sites are about 20 percent, that give us more 
scientific urgency to removing these Superfund sites? Are you 
aware of that data?
    Ms. McCarthy. To some extent. I am aware of a number of 
studies that have been done that show a couple of things. One 
is the hell of damage around these sites, but also the economic 
benefits of transforming these sites.
    Senator Booker. Right. And definitely every dollar invested 
in cleaning up these sites creates greater economic growth, 
greater jobs. But for me the children, now that we are seeing 
much more longitudinal studies, the lost economic productivity 
of kids that are being affected and their health is being 
affected is really troublesome.
    So I have reintroduced the same legislation that was 
reauthorized by Ronald Reagan, voted on by a number of my 
colleagues, Republicans and Democrats, which is a small tax on 
polluting industries. What I guess I want to ask you really 
directly is when I put a request into the EPA to give me the 
count of Superfund sites, we have actually seen an increase in 
our Country of Superfund sites, as opposed to a decrease.
    And these orphan sites, many of them are ready to go but 
lacking the funding to remove them. It seems pretty stunning to 
me that you are not able to right now actively cleanup these 
sites which are affecting the health of children and pregnant 
women.
    Ms. McCarthy. Well, we would certainly love an ability to 
be able to knock some of those sites off the list. It is a long 
and slow process, and additional funding certainly helps to 
address that issue.
    Senator Booker. So Congress's inaction to find this is 
putting at risk the health of our children and pregnant women 
in every State around the Country.
    Ms. McCarthy. There are many risks in every State around 
the Country from environmental exposures. Superfund sites are 
one of them.
    Senator Booker. Thank you very much.
    The other issue that I just want to bring up really quickly 
is air quality. Urban areas in New Jersey have, and you came to 
Newark, in fact, and helped us to start to produce the data on 
this, but the asthma rates are about three, four times higher. 
No. 1 reason why children are missing schools; the lack of 
productivity, the impact it has on that child's overall success 
is pretty dramatic, and that evidence is pretty iron clad, 
correct?
    Ms. McCarthy. Yes, it is.
    Senator Booker. So I know you are doing some shifts and 
changes with the DERA program, but could you just outline for 
me, and I have one more question after this, so I am hoping you 
can do it quickly, some of the efforts to deal with the clean 
air which disproportionately impacts our poorest and most 
vulnerable communities in areas that are heavily dependent, 
really located in transportation superstructures?
    Ms. McCarthy. Well, as you know, our work on the National 
Ambient Air Quality Standard is a significant step forward in 
terms of looking at ozone and particulate matter, to be 
specific. So we are looking at those issues.
    We are also doing community level work. We are trying to 
get better monitoring data, look at potential localized 
emissions that are also crucial moving forward. We are working 
with innovators to develop new monitoring so we can have a 
better understanding of what air quality looks like. So we are 
working on a number of different funds from both national 
rules, as well as local community efforts.
    Senator Booker. And really quickly, relative to other areas 
of the budget, there is a very small pool for environmental 
justice work. Could you just detail that? And I will be 
respectful for the Chairman.
    Ms. McCarthy. Yes. We have a whole community effort that we 
are looking to support in this proposal and continue, it is 
called Making a Visible Difference in Communities and it is 
called Environmental Justice. Those are incredibly important 
efforts moving forward, and they are efforts that are 
extraordinarily positive because they bring other agencies to 
the table so the communities that otherwise wouldn't have the 
wherewithal to take care of these exposures get opportunities 
not just to reduce those through our funding, but also 
opportunities for new jobs, for new housing to really become 
active, engaged, and affirmative communities that control their 
own destiny.
    Senator Booker. Thank you very much.
    Ms. McCarthy. It is a wonderful opportunity.
    Senator Booker. Thank you. And, again, I appreciate your 
leadership and the passion you have for vulnerable communities.
    Mr. Chairman, thank you for the time.
    Senator Inhofe. Thank you, Senator Booker.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    I want to thank the witness and thank you for your service.
    Ms. McCarthy. Thank you, Senator.
    Senator Capito. I wanted to ask you about the Clean Power 
Plan. And I have been sort of in and out of the meeting, so I 
apologize if you have directly answered the question that I am 
going to ask, but I think the initial response I heard was 
vague, and that is what has concerned me; and that is what 
would happen to the deadlines under the Clean Power Plan if the 
rule is ultimately upheld by the Supreme Court.
    Janet McCabe, who is your Acting Assistant Administrator, 
she said that it is actually a little premature to be 
speculating specifically about the compliance dates in the 
Clean Power Plan, but I would beg to differ since it could have 
massive consequences to all of our States. I think something 
more crystal clear and definitive, whether these deadlines will 
be suspended or tolled as your brief, I think, before the 
Supreme Court seemed to agree to.
    So I guess today have you made a statement, again, if I 
wasn't in the room, I apologize, to a clear signal as to what 
will happen to these deadlines if your rule is upheld at the 
Supreme Court level?
    Ms. McCarthy. Well, the reason why I think Janet indicated 
it is premature is the first compliance deadline doesn't happen 
until 2022. So we are hoping that it will be expedited, as they 
know there is an expedited schedule already in the district 
court to get through this system and get to the Supreme Court, 
as they have indicated.
    The Supreme Court didn't speak to the tolling question; all 
they did was stay the rule. We do not have the authority on our 
own to be able to make changes to that rule, and we certainly 
expect that the courts, when they make their final decisions, 
will speak to that issue directly.
    Senator Capito. So I guess what I am hearing is that since 
the compliance date is not until 2022, the anticipation is that 
the deadlines, if the Court doesn't speak to it, the deadlines 
would go forward as proposed?
    Ms. McCarthy. Well, the deadline would if the Court doesn't 
speak to it. The deadline we knew we couldn't manage was the 
one that is coming up, because there is no way in which we will 
be to the Supreme Court in a timely way.
    Senator Capito. And what happened to that deadline?
    Ms. McCarthy. We indicated to the States not to submit 
plans because we are not implementing the rule.
    Senator Capito. Right. By that deadline.
    Ms. McCarthy. That is correct.
    Senator Capito. But you are still going to have a time for 
them to submit plans if in fact the Supreme Court agrees with 
the regulation.
    Ms. McCarthy. That is correct.
    Senator Capito. OK. Let me ask you this. You have stated in 
your budget and you stated, I think, well, I have here that 25 
States are continuing to voluntarily work on implementation 
plans. Is that correct?
    Ms. McCarthy. Yes. There are a number of States. I don't 
have the exact number, but there are a number of States that 
are working on plans and there are many States that continue to 
get together and talk to us and look at how they would be 
prepared for the rule moving forward.
    Senator Capito. If we could get a more definitive number of 
States that are actually moving forward, because in your budget 
you are saying that you want to spend $25.5 million to work 
with States to develop and review CPP plans. So your whole 
climate change budget is $235 million.
    Ms. McCarthy. That is correct.
    Senator Capito. Twenty-five million of that is supposedly 
to help voluntarily with these States.
    Ms. McCarthy. For EPA to develop tools and work with the 
States. But there is also $25 million for the States themselves 
to continue to move forward on implementation voluntarily or on 
other issues related.
    Senator Capito. That is an additional 25?
    Ms. McCarthy. That is correct.
    Senator Capito. Is that the STAG grants to States?
    Ms. McCarthy. That portion is, yes.
    Senator Capito. Yes.
    Ms. McCarthy. That is not the total of the STAG grants.
    Senator Capito. So that is $50 million, and we are still 
$185 million asking for appropriations for where you State that 
the centerpiece of this effort, the Clean Power Plan. I would 
just register some concern that in fact it appears, through 
your budget, that you are moving forward with this even though 
you have a stay on it. It is still very much a part of the 
appropriations process.
    And when I look and see that the Clean Water State 
Revolving Loan Fund, which a lot of people have, and I would 
join in my concern about the cuts there, I could make a 
suggestion. I have $185 million sitting over here I think could 
go right over to the Clean Water State Revolving Fund and I 
think impact a lot of people and their health as well.
    Ms. McCarthy. Senator, if I could just point out.
    Senator Capito. Yes. Of course.
    Ms. McCarthy. All of that money I would be able to provide 
you the detail, but only those two are directly related to the 
Clean Power Plan, that is $50.5 million. The rest is identified 
as opportunities in our vehicle emissions, our Energy Star 
program, our methane reduction initiatives. So there are a 
number of others that we can certainly provide you with details 
on.
    Senator Capito. So it is a little vague in here, because 
you say the centerpiece of these efforts is the Clean Power 
Plan right after you ask for $235 million.
    Ms. McCarthy. And it is not all tagged to that, just the 
50.5.
    Senator Capito. OK. All right, then let's move to methane, 
because you are undertaking a series of mandates covering 
methane, but you, even in your own statements in February, said 
my caveat is that EPA is learning this industry right now 
because it is not an industry we regulate. We have just gotten 
into regulation of this, so there are hundreds of thousands of 
small sources and EPA doesn't generally have a relationship 
with this industry, it is regulated at the State level, as we 
do other sectors that we have regulated for decades, but we are 
learning.
    So we are learning, but we are moving forward with a costly 
regulation, and the regulation has been at the States. We have 
pushed down the methane; emissions have fallen by a greater 
percentage than the number of wells that have been drawn. Do 
you feel that the States are not adequately regulating in this 
area? And why would you not let them continue since their 
record is moving in the absolutely correct direction?
    Ms. McCarthy. Well, the rules that we are moving forward on 
we are very confident that we have the level of information we 
need to do that rulemaking appropriately. There are some States 
that are doing a great job, and we are coordinating with them 
to make sure we are not duplicating and to coordinate on 
reporting or any other requirements under a Federal law. But 
there are many States that continue to have challenges in this 
regard and what we have identified is that there are many more 
methane emissions from the oil and gas sector than we had 
previously understood.
    So when I am talking about learning, we are actually 
putting out an information collection request to the industry 
that will provide us the level of data not just on emissions, 
but on technology choices to reduce those, as well as costs, so 
that we can work with States to identify where they can improve 
and where a Federal rulemaking may be advisable and what that 
might look like.
    Senator Capito. Thank you.
    Senator Inhofe. OK, this does complete all of those who 
have been here. I am going to do something that I know I will 
regret, but I am going to do it anyway, because we have one 
member on our side who really wants to have three more minutes. 
So I am going to ask Senator Boxer if she would like to have 
three more minutes and, if so, maybe even give that to you, 
Senator Whitehouse.
    Senator Boxer. No, I am going to need my 3 minutes.
    Senator Inhofe. Why don't you go ahead and take your 3 
minutes, then?
    Senator Boxer. I would prefer to wait.
    Senator Inhofe. Well, I would prefer you take it now. 
Please do.
    Senator Boxer. Well, I would prefer to wait.
    Senator Inhofe. Well, I prefer you take it now. You know, 
we had an election, you understand.
    Senator Boxer. It is ridiculous.
    Senator Inhofe. Yes, I agree.
    Senator Boxer. But I will take it now. I will take it now.
    First of all, I want to answer some of the garbage that you 
have heard here today. I want to talk about job creation, 
because a lot of people here have taken it on and said 
environmental regulations stop jobs.
    Let me tell you about my State. Leader in taking action on 
climate; leader in taking action on pollution control. We 
created, in our great State, since 2011, 17 percent of all the 
new jobs. OK? And we account for 11 percent of the population. 
And I will ask unanimous consent to place those exact numbers 
in the record.
    Senator Inhofe. Without objection.
    Senator Boxer. Now, we also hear from Senator Vitter the 
ozone rule is killing jobs. Let me just say something here. If 
you can't breathe, you can't work. Let's be clear. And if you 
die prematurely, you surely can't work because you are dead. So 
here is the deal. With this rule we will save 320 to 660 people 
from premature death. OK? Two hundred thirty thousand asthma 
attacks in children will be averted. One hundred sixty thousand 
days we will not have kids miss school; 28,000 missed work days 
will not happen; 630 asthma-related emergency room visits will 
not happen; and 340 cases of acute bronchitis in children will 
not happen.
    So when you look at this and you see this constant refrain 
from my colleagues on the right here against the environment, 
totally against it, attacking you, and you have been fabulous 
standing up to these nonsensical attacks, you wonder why they 
are doing it given I made a mistake, I said our job approval as 
a Congress was 18 percent; it is 14 percent according to a CBS 
News poll, April 2015. People want us fighting to clean up the 
air and cleanup the water. There is no question about it.
    And I will put into the record the counter poll numbers; 
Senator Carper alluded to it. I want to be pretty clear. First 
of all, from 1970 to 2014, aggregate national emissions of the 
six common pollutants alone dropped an average of 69 percent, 
while gross domestic product grew by 238 percent. So anyone who 
has been alive through these years, who has a heartbeat and a 
pulse knows when you cleanup the environment, you boost the 
economy for so many reasons: people's health; the fact that, 
yes, we make investments in clean technology that get disbursed 
throughout the world.
    And if you look at the voter support for Clean Power Plan, 
60 percent; 73 percent of voters support the U.S. Environmental 
Protection Agency placing stricter limits on the amount of 
ozone pollution; and they do not want the Congress to deal with 
it.
    I will close with this. The Waters of the United States, 77 
percent say the EPA should protect us from the dirty water and 
do the clean water rule; 9 percent say the Congress should to 
it.
    So I stand with the American people against this right-wing 
rhetoric, and it is just ridiculous that this is the 
Environment Committee and you need to be subjected to the kind 
of attacks that you have been submitted to.
    And also on TSCA there is no agreement. I just checked with 
Nancy Pelosi.
    Senator Inhofe. All right, I will take my 3 minutes and 52 
seconds, and I am going to give my 3 minutes and 52 seconds to 
Senator Sullivan, after which we will be adjourned.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman. I want to thank 
the Ranking Member, whom I have the utmost respect for. I just 
think sometimes we are reflecting the different frustrations of 
our constituents, and my constituents are enormously frustrated 
by many, not all, actions of the EPA, and one of them is 
compliance with the rule of law. And it is not just me talking, 
it is Laurence Tribe, it is the U.S. Supreme Court, it is the 
6th Circuit. I mean, it is pretty dramatic.
    Administrator, I appreciate your service. I know it is not 
always easy, but I am shocked at your statement about even if 
we lose, we win. This is the kind of statement that fuels the 
frustration so many Americans have regarding their Federal 
Government, and I just would thoroughly disagree with you. I 
think that is the kind of statement that senior Administration 
officials should not be making, because it demonstrates that 
you are not serious about the rule of law.
    But let me go to another issue that we had a hearing on, 
the Animas River spill. You testified here, when I asked a 
question on that, should you be held to the same standard as 
the public or private sector of American citizens or companies, 
you said that, actually, it would be a higher standard that 
would be appropriate for your agency.
    So can you give us an update on what happened there? And 
let me just ask a couple questions. Has anyone been held 
accountable? And what do you think would happen if a private 
sector company did exactly what the EPA or its contractors did 
in this case, which is, I assuming accidentally, I am assuming 
you didn't intentionally pollute a water, through a mistake?
    What would happen to a private sector company? I can tell 
you, you probably know this, EPA has actually criminally 
prosecuted private sector companies for doing something less 
serious. So this is a bit of an act as I say, not as I do 
issue.
    Can you give us an update and is anyone being criminally 
prosecuted or is anyone resigning or has anyone taken 
responsibility as you would if it were a private sector company 
who did the identical thing? At the last hearing we had on 
this, for the record, I did give many examples of that kind of 
prosecution that the EPA has undertaken. What is the latest? 
And are you holding yourself to a higher standard, as you said 
you would, than you would to a private American citizen?
    Ms. McCarthy. I believe we are, and I know that the Office 
of the Inspector General is producing a report where he is 
looking at the issue and will provide that when the report is 
complete. But I think, as you know, we were there actually to 
be of assistance to the State and those local communities 
struggling with the mine situation and the potential for a 
blowout.
    Senator Sullivan. But, Administrator, if it is a higher 
standard and you made a mistake, not intentional, you polluted 
dramatically a river, if a private sector American did that, 
say with a backhoe like happened in Alaska, unintentionally, 
criminally prosecuted. So how can you say you are holding EPA 
to a higher standard when it doesn't even seem like anyone has 
resigned or done anything? So I don't get it.
    Ms. McCarthy. I think there is a difference between going 
in and trying to be helpful to resolve the situation that we 
know is a significant problem and there is a difference between 
intending to create a problem, and so----
    Senator Sullivan. Right, but you have prosecuted criminally 
people who have not intentionally polluted.
    Ms. McCarthy. Yes.
    Senator Sullivan. Now, look, polluters should be prosecuted 
to the full extent of the law, I agree with that. But if you 
are saying that you should be held to the same standard, let me 
just end with a related----
    Ms. McCarthy. The issue is, were we negligent? Did we do 
our job? Was the accident intended or could we have done 
something that prevented that? Those issues the Inspector 
General is looking at and we will be able to speak to that. 
But, in the meantime, our job is to clean it up, to reimburse 
those expenses, to look at the long-term monitoring, and we 
certainly are doing that to the best we can.
    Senator Inhofe. Madam Administrator, we are adjourned.
    Ms. McCarthy. Oh, thank you so much.
    [Whereupon, at 11:53 a.m. the committee was adjourned.]

                                 [all]
</pre></body></html>
